Report No. D-2008-139          September 30, 2008




      Defense Civilian Pay System Controls
        Placed in Operation and Tests of
         Operating Effectiveness for the
            Period October 1, 2007,
            through March 31, 2008
Additional Copies

To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
(703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Office of the Deputy
Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
604-8932. Ideas and requests can also be mailed to:

                     ODIG-AUD (ATTN: Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704
                                      INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704




                                                                         September 30, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF DEFENSE (NETWORKS
                 AND INFORMATION INTEGRATION)/DOD ClITEF
                 INFORMATION OFFICER
               DIRECTOR, DEFENSE FlNANCE AND ACCOUNTlNG
                 SERVICE
               DIRECTOR, DEFENSE INFORMATION SYSTEMS
                 AGENCY

SUBJECT: Rep011 on Defense Civilian Pay System Controls Placed in Operation and
         Tests of Operating Effectiveness for the Period October 1,2007, through
         March 31,2008 (Rep011 No. D-2008-139)


We are providing this report for your infonnation and use. No written response to this
report is required. Therefore, we are publishing this report in final form.

We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Patricia Remington at (703) 601-5815 (DSN 329-5815) or Mrs. Donna A. Roberts at
(703) 601-5859 (DSN 329-5859). The team members are listed inside the back cover.




                                        toJ;v~~~/           OL. m~
                                        Patricia A. Marsh, CPA
                                     Assistant Inspector General
                                  Defense Financial Auditing Service
Table of Contents
Foreword                                                                         i

Section I
      Independent Service Auditor’s Report                                       1

Section II
      Description of the Defense Civilian Pay System Operations and Controls
         Provided by the Defense Finance and Accounting Service and the
         Defense Information Systems Agency                                     13

Section III
     Control Objectives, Control Activities, and Tests of Operating
        Effectiveness                                                           25

Section IV
      Supplemental Information Provided by the Defense Finance and
         Accounting Service and the Defense Information Systems Agency         113

Acronyms and Abbreviations                                                     117
                                        Foreword

This report is intended for the use of the Defense Finance and Accounting Service
(DFAS) and the Defense Information Systems Agency (DISA) management, its user
organizations, and the independent auditors of its user organizations. DoD personnel who
manage and use the Defense Civilian Personnel System (DCPS) will also find this report
of interest as it contains information about DCPS general and application controls.

The DoD Office of Inspector General (OIG) is implementing a long-range strategy to
conduct audits of DoD financial statements. The Chief Financial Officers Act of 1990
(Public Law 101-576), as amended, mandates that agencies prepare and conduct audits of
financial statements, which is key to achieve the goals of the Chief Financial Officers
Act.

The DCPS is a pay processing system used to pay DoD civilian employees, as well as
employees at several other Federal entities, including the Departments of Energy, Health
and Human Services, and the Executive Office of the President. As of March 31, 2008,
DCPS processes pay for approximately 834,000 employees.

This audit assessed controls over the DCPS processes at DFAS and DISA. This report
provides an opinion on the fairness of presentation, the adequacy of design, and the
operating effectiveness of key controls that are relevant to audits of user organization
financial statements. As a result, this audit precludes the need for multiple audits of
DCPS performed by user organizations to plan or conduct financial statement and
performance audits. Effective internal control is critical to achieve reliable information
for all management reporting and decision making.




                                              i
Section I: Independent Service Auditor’s Report




                       1
These types of pervasive controls include:

    •    overall security planning (for example, DECC risk assessments, site security plans,
         security management structure);

    •    general employee processes (for example, background investigations and position and job
         descriptions);

    •    group authentication;1 and

    •    physical security:
                 visitor access;
                 network administration (for example, firewalls, network scans, remote
                  access, network monitoring, use of mobile code);
                 incident response;
                 environmental controls; and
                 hardware maintenance.

We did not examine these pervasive controls at the DISA DECC-MECH data center
because these controls were evaluated as part of the DISA Statements of Auditing
Standard No. 70 (SAS 70) and excluded from the scope of this audit at the direction of
the DoD OIG.

The accompanying description includes those application control objectives and related
controls resident at the Charleston, South Carolina; Pensacola, Florida; Indianapolis,
Indiana; Cleveland, Ohio; and Denver, Colorado Payroll Offices. However, due to the
payroll office consolidation as a result of the Base Realignment and Closure (BRAC), the
Charleston and Denver Payroll Offices permanently closed during this audit. In addition,
the Pensacola Payroll Office permanently closed on May 31, 2008. The remaining payroll
offices in Indianapolis, Indiana, and Cleveland, Ohio, performed the control activities.
Therefore, we did not inspect controls specific to the closed locations as part of this audit.

DCPS processes approximately 81 interface files from DoD and external systems.
Examples of systems that provide interface files2 to DCPS include the Defense Civilian
Personnel Data System, Federal Reserve, Thrift Savings Plan, and the Department of
Treasury. The accompanying description does not include control objectives and general
and application controls related to the systems that interface with DCPS. In addition, our
audit did not extend to the controls at the National Security Agency (NSA). Furthermore,


1The act of verifying the identity of a user and the user’s eligibility to access computerized information.
Designed to protect a system against fraudulent activity.

2A connection between two devices, applications, or networks or a boundary across which two systems
communicate.

                                                      4
because of the sensitive nature of the pay information for personnel who work for the
Executive Office of the President (EOP), our audit did not extend to the controls over
EOP payee transactions.

We conducted our audit for the purpose of forming an opinion of the description of the
DCPS general and application controls at DFAS and DISA (Sections II and III). We
have included information about business continuity plans and procedures at DFAS and
DISA, as provided by DFAS and DISA respectively in Section IV. Section IV only
provides additional information to user organizations and is not a part of the description
of controls at DFAS and DISA. The information in Section IV has not been subjected to
the procedures applied in the audit of the controls at DFAS and DISA. Accordingly, we
do not express an opinion on the description of DFAS and DISA business continuity
plans and procedures.

We identified the following control design deficiencies related to the controls described
in Section III, Control Objectives, Control Activities, and Tests of Operating
Effectiveness.

Lack of Approved Policies

We noted that no policy exists that requires Civilian Pay Processing personnel to generate
and review a complete, accurate listing of management summary reports to confirm that
payroll is processed timely and accurately. In addition, we noted there was no policy for
retaining 592 documentation; specifically, the 592 Report Checklist and the 592 Report
of Withholdings. We also noted that there was no policy at DFAS Indianapolis for the
physical security of the pay processing areas.

As a result, the design of the controls does not provide reasonable assurance that the
following control objectives will be achieved.

“Controls prevent unauthorized system access to DCPS data.”

“Controls provide reasonable assurance that personnel and payroll data processed and
stored at the DFAS and DISA General Computer Control locations are valid, accurate,
authorized, complete, timely, support financial reporting requirements and provide
sufficient audit trails.”

As discussed in Sections II and III, DFAS and DISA have developed policies and
procedures to ensure that personnel and payroll data processed and stored at DFAS and
DISA are valid, accurate, authorized, complete, timely, support financial reporting
requirements, and provide sufficient audit trails. However, these policies have not been
consistently updated or followed by DFAS. As a result, the design of DFAS controls
does not provide reasonable assurance that the control objectives, “Controls prevent
unauthorized system access to DCPS data”; and “Controls provide reasonable assurance
that personnel and payroll data processed and stored at the DFAS and DISA General
Computer Control locations are valid, accurate, authorized, complete, timely, support
financial reporting requirements and provide sufficient audit trails,” will be achieved.

                                             5
In our opinion, Sections II and III present fairly, in all material respects, the relevant
aspects of DFAS and DISA controls that had been placed in operation as of March 31,
2008. Also, in our opinion, except for the design deficiency referred to in the preceding
paragraph, the controls are suitably designed to provide reasonable, but not absolute,
assurance that the specified control objectives would be achieved if the described controls
were complied with satisfactorily and user organizations applied those aspects of internal
control contemplated in the design of the DFAS and DISA controls.

In addition to the procedures that we considered necessary to render our opinion, as
expressed in the previous paragraph, we tested specified controls, listed in Section III, to
determine whether they are effectively meeting the related control objectives described in
Section III during the period of October 1, 2007, through March 31, 2008. We
documented the specific control objectives and controls. We also documented the nature,
timing, extent, and results of the tests in Section III. We provided this information to
DCPS user organizations and to their auditors to be taken into consideration, along with
information about the user organizations’ internal control environments, when making
assessments of control risks for such user organizations.

We identified the following operating deficiencies related to the controls described in
Section III, Control Objectives, Control Activities, and Tests of Operating Effectiveness.

DCPS User Access

DFAS requires every DCPS user to complete a System Access Authorization Request
(SAAR) form. The SAAR form documents user access and must be signed by a
supervisor indicating that such access has been approved. Upon selecting a sample of 90
forms for DCPS non-payroll office users, we determined that:

   •   15 forms could not be located,

   •   11 forms had a user type that did not match the user type in the list of DCPS
       Users by Database,

   •   6 forms had authorization types that did not match the authorization type in the
       list of DCPS Users by Database,

   •   16 forms were missing the DCPS Security Awareness Computer-Based Training
       completion date,

   •   1 form was missing the user’s signature,

   •   2 forms were missing the supervisor’s signature,

   •   10 forms were missing the date of the supervisor’s signature,

   •   23 forms were missing the security manager’s signature,




                                             6
   •   27 forms were missing the date of the security manager’s signature, and

   •   13 users completed the incorrect form.

Upon selecting a sample of 90 forms for DCPS payroll office users, we identified that:

   •   10 forms could not be located,

   •   29 users completed the incorrect form,

   •   31 forms had a user type that did not match the user type in the list of DCPS Users by
       Database,

   •   11 forms were missing the DCPS Security Awareness Computer-Based Training
       completion date,

   •   1 form was missing a user’s signature,

   •   6 forms were missing the date of the supervisor’s signature,

   •   10 forms were missing the security manager’s signature, and

   •   17 forms were missing the date of the security manager’s signature.

Upon examining forms for the entire population of 66 users with the ability to disburse
payroll, we identified 1 form that did not contain justification for access to disburse
payroll.

As a result, the following control objectives may not have been achieved during the
period of October 1, 2007, through March 31, 2008.

“Controls prevent unauthorized system access to DCPS data.”

“Controls provide reasonable assurance that personnel and payroll data processed and
stored at the DFAS and DISA General Computer Control locations are valid, accurate,
authorized, complete, timely, support financial reporting requirements and provide
sufficient audit trails.”

Monitoring DCPS Error Reports

The Personnel Interface Invalid Report (PIIR) is a key control for monitoring and
resolving DCPS interface processing errors. This report contains rejections, suspensions,
or deletions of data to document changes in existing data in DCPS and data input through
interface files.

We examined a sample of 45 PIIRs generated during the audit period at each payroll
office to confirm whether the reports were consistently annotated to indicate that
processing exceptions were resolved.


                                            7
At the DFAS Indianapolis Payroll Office, 12 of the 45 PIIRs selected from five databases
could not be located. Of the remaining 33 reports inspected, we identified that:

   •   2 reports were missing the date of when the report was annotated by the
       technician and

   •   3 reports were not correctly annotated with codes outlined in the Standard
       Operating Procedure (SOP).
At the DFAS Cleveland Payroll Office, 16 of the 45 PIIRs selected from five databases
could not be located. Of the remaining 29 reports inspected, we identified that:

   •   1 report was missing a technician’s signature and

   •   1 report was missing the date of when the report was reviewed by the technician.
As a result, the following control objective may not have been achieved during the period
of October 1, 2007, through March 31, 2008.

“Controls provide reasonable assurance that personnel and payroll data processed and stored
at the DFAS and DISA locations are valid, accurate, authorized, complete, timely, support
financial reporting requirements and provide sufficient audit trails.”

Visitor Access

At the DFAS Cleveland Payroll Office, we inspected a sample of 21 visitor logs. Of the 21
visitor logs inspected, we observed that:

   •   4 logs were missing the visitor organization,

   •   4 logs were missing the authorized sponsor,

   •   3 logs were missing the reason for visit,

   •   4 logs were missing the floor visited, and

   •   4 logs were missing the visitor badge turn-in date.
At the DFAS Indianapolis Payroll Office, visitors with a valid Common Access Card, law
enforcement badge, or military identification can enter the DFAS building and are not required
to sign in and out with security; therefore, access is not limited to authorized payroll office
personnel. We observed that the terminals that process payroll are located in a physically secure
building. However, terminal rooms are not locked, and data entry terminals can be connected to
the system 24 hours a day, 7 days a week, except during system downtime. The terminal rooms
are located in shared spaces with other agencies and non-payroll office personnel have access to
sensitive payroll information. We also observed that the cabinets where payroll information is
stored are not secured. In addition, we observed that visitors to the DFAS Indianapolis Payroll

                                            8
Office must sign in and out with authorized security personnel; however, once the visitor is
inside the building there is no requirement to display the visitor badge.
As a result, the following control objective may not have been achieved during the period
of October 1, 2007, through March 31, 2008.

“Controls prevent unauthorized physical access to DCPS data.”


Management Summary Reports

The Indianapolis and Cleveland Payroll Offices lacked a policy that requires a complete listing
of summary reports to confirm that personnel and payroll data are processed, valid, accurate, and
authorized.

As a result, the following control objective may not have been achieved during the period
of October 1, 2007, through March 31, 2008.

“Controls provide reasonable assurance that personnel and payroll data processed and
stored at the DFAS and DISA General Computer Controls locations are valid, accurate,
authorized, complete, timely, support financial reporting requirements and provide
sufficient audit trails.”

Personnel/Payroll Reconciliation Reports

At the DFAS Indianapolis Payroll Office, we inspected 45 Personnel/Payroll
Reconciliation Reports. The Personnel/Payroll Reconciliation Reports document the
reconciliation between the personnel systems of the payroll customers and DCPS to
capture changes in personnel information. Of the 45 Personnel/Payroll Reconciliation
Reports inspected, 1 report could not be located. In addition, eight reports did not include
notification sent to user agencies with the necessary changes.

At the DFAS Cleveland Payroll Office, we found that the DFAS Cleveland Payroll
Office did not receive any Personnel/Payroll Reconciliation Reports for two quarters of
the audit period.

As a result, the following control objective may not have been achieved during the period
of October 1, 2007, through March 31, 2008.

“Controls provide reasonable assurance that personnel and payroll data processed and stored
at the DFAS and DISA General Computer Controls locations are valid, accurate, authorized,
complete, timely, support financial reporting requirements and provide sufficient audit trails.”

592 Reconciliation Reports

The 592 Reconciliation process is performed at the end of every pay period by civilian pay
technicians to confirm that all payroll balancing spreadsheets have been received and all


                                             9
discrepancies have been identified and/or corrected in order to release payroll files to the
disbursing office.

At the DFAS Indianapolis Payroll Office, we inspected 45 592 Reconciliation reports. Of
the 45 592 Reconciliation reports, 8 reports did not have documentation of a final
disbursement authorization.

We noted that 1 of 45 selected 592 Reconciliations did not balance, and a supplemental
592 Reconciliation was not prepared. We noted that for 1 of 45 selected 592
Reconciliations, the Report of Withholdings was not signed.
 
As a result, the following control objectives may not have been achieved during the
period of October 1, 2007, through March 31, 2008.

“Controls provide reasonable assurance that DCPS authorized users are restricted to access
only areas needed to complete their assigned responsibilities and controls maintain segregation
of duties.”

“Controls provide reasonable assurance that personnel and payroll data processed and
stored at the DFAS and DISA General Computer Controls locations are valid, accurate,
authorized, complete, timely, support financial reporting requirements and provide
sufficient audit trails.”

DCPS Change Management

All configuration changes made to the DCPS application are required to comply with
Department of Defense Instruction 8500.2, “Information Assurance Implementation,”
standards for software development change controls. However, the configuration
management process at DISA does not provide an audit trail to confirm that changes are
tested in a test environment before being implemented into the production environment.

As a result, the following control objectives may not have been achieved during the
period of October 1, 2007, through March 31, 2008.

“DISA or DFAS initiated application, software, or hardware modifications are
authorized, and the documentation is maintained.”

“Changes to the DoD information system are assessed for Information Assurance (IA)
and accreditation impact prior to implementation.”




                                             10
DCPS Access Audits

Monitoring access to DCPS is required to comply with DoD Instruction 8500.2 standards
for audit trails, monitoring, analysis, and reporting. However, payroll office personnel
did not perform the monthly access audits.3

As a result, the following control objective may not have been achieved during the period
of October 1, 2007, through March 31, 2008.

“Audit trails are maintained.”

DCPS Operator Logs

Access to DCPS is required to comply with DoD Instruction 8500.2 standards for group
identification and authentication. However, the DFAS operations group uses a group
authenticator to execute batch jobs. To mitigate risk, DFAS uses a daily operator log to
record the actions of the operators. However, DFAS could not provide operator logs for 3
of 18 sampled dates.

As a result, the following control objectives may not have been achieved during the
period of October 1, 2007, through March 31, 2008,

“Group authenticators for application or network access may be used only in
conjunction with an individual authenticator.”

“Controls provide reasonable assurance that personnel and payroll data processed and
stored at the DFAS and DISA General Computer Controls locations are valid, accurate,
authorized, complete, timely, support financial reporting requirements and provide
sufficient audit trails.”

In our opinion, except for the deficiencies in operating effectiveness noted in the
preceding paragraphs, the controls that we tested, as described in Sections II and III, were
operating with sufficient effectiveness to provide reasonable, but not absolute, assurance
that the control objectives specified in Sections II and III were achieved during the period
of October 1, 2007, through March 31, 2008.

The relative effectiveness and significance of specific controls at DFAS and DISA, and
their effect on assessments of control risk at user organizations, are dependent on their
interaction with the internal control environment and other factors present at individual
user organizations. We have not performed procedures to evaluate the effectiveness of
internal controls placed in operation at individual user organizations.

The description of the controls at DFAS and DISA is as of March 31, 2008, and
information about tests of their operating effectiveness covers the period of October 1,


3 DCPS conducts three types of internal audits at the payroll offices: user access, segregation of duties, and
supervisory codes.

                                                     11
 Section II: Description of the Defense Civilian Pay System
Operations and Controls Provided by the Defense Finance and
  Accounting Service and the Defense Information Systems
                           Agency




                            13
II. Description of the Defense Civilian Pay System Operations
and Controls Provided by the Defense Finance and Accounting
Service and the Defense Information Systems Agency

A. Overview of DCPS

Purpose of DCPS

In 1991, DoD selected DCPS as its standard payroll system. DCPS is used by all DoD
activities paying civilian employees, except Local Nationals and those funded by Non-
appropriated Funds and Civilian Mariners. Before becoming the DoD-wide civilian pay
system, DCPS was the Navy civilian pay system, which had been in operation since
1988. DFAS began paying the Executive Office of the President (EOP) in 1998. The
2001 President’s Management Agenda e-Payroll initiative established federal payroll
providers to service the entire executive branch of the Federal Government; DFAS was
selected as one of those providers. DFAS began processing payroll for the Department of
Energy (DoE) in 2003, the Department of Health and Human Services (HHS) in 2005,
the Environmental Protection Agency (EPA) and, Department of Veterans Affairs (VA)
in 2006, and the Broadcast Board of Governors (BBG) in 2007. As of June 30, 2008,
DCPS currently processes pay for approximately 834,000 employees.

The DCPS program mission is to process payroll for DoD and non-DoD civilian
employees in accordance with existing regulatory, statutory, and financial information
requirements relating to civilian pay entitlements and applicable policies and procedures.
The DoD civilian pay program must satisfy the complex and extensive functional,
technical, and interface requirements associated with the DoD and non-DoD civilian pay
function. The functional areas include: employee data maintenance, time and
attendance, leave, pay processing, deductions, retirement processing, debt collection,
special actions, disbursing and collection, reports processing and reconciliation, and
record maintenance and retention. DCPS provides standard interface support to various
accounting, financial management, and personnel systems. From a life cycle perspective,
DCPS is in the maintenance phase, with system changes mainly resulting from legislative
and functional requirements.

DFAS participated in a BRAC transformation that impacted the DCPS Payroll Offices.
The BRAC consolidated and relocated the three servicing payroll offices located in
Pensacola, Florida, Charleston, South Carolina and Denver, Colorado into two payroll
offices located in Cleveland, Ohio, and Indianapolis, Indiana. The move and
consolidation were completed in March, 2008. Approximately 300 payroll processing
personnel at the two DFAS Payroll Offices use DCPS. DCPS is also used at NSA4.
Additional users include Customer Service Representatives (CSRs), Timekeepers, and


4The NSA payroll office is not included in the scope of this “Description of DCPS Operations and Controls
Provided by DFAS and DISA.”


                                                   15
Certifiers at customer activities and sites. The Cleveland Payroll Office processes payroll
for the Navy, DoE, and HHS. The Indianapolis Payroll Office processes payroll for all
other unclassified DFAS payroll customers. Migration of VA pay account processing is
scheduled for completion September, 2009.

DCPS Support Functions

The DFAS Standards and Compliance Division (under the cognizance of the DFAS Director)
provides high-level management control and coordination within DoD and for DCPS external
customers. The Civilian Pay Systems Management Directorate (under the cognizance of the
DFAS Chief Information Officer) have overall daily responsibility for application, operation,
interpretation and implementation of DCPS. In addition, those offices are responsible for
coordinating with external users and new customers. Civilian Pay Systems Management
Directorate is responsible for requirements management, functional analysis, information
assurance, and user documentation processes.

The Technology Services Engineering Organization Pensacola (TSOPE) provides DCPS
software engineering, production support, and customer service. Within TSOPE, several groups
provide DCPS support. The Software Engineering Division provides technical design,
programming, unit testing, and system documentation. The Software Test and Evaluation
Division performs integration testing and evaluation processes. The Project Support Division
provides system software, telecommunication, computer resource tools, and database support.
DCPS Software Quality Assurance monitors the software engineering process and provides
recommendations for improvement. The Systems Support Division provides configuration
management, release management, implementation status, and customer support. DCPS is
maintained and executed on a DISA mainframe platform at DISA DECC-MECH, Pennsylvania.

DCPS Systems Architecture

DCPS has a two-tiered architecture comprised of the following:

   •   Mainframe hardware and software components - used as a repository for collecting and
       accumulating data, and providing centralized, biweekly processing of civilian pay and its
       attendant functions (for example., electronic funds transfer, generation of leave and
       earnings statements); and

   •   Remote user/print spooler hardware and software - used to collect and/or pre-process data
       at customer sites, provide connectivity to DCPS mainframe components, and support
       printing of mainframe-generated outputs (for example, reports, timesheets) at customer
       locations. The components are largely customer-owned and operated, and include local
       area networks (LANs), personal computers, and a diverse assortment of printers and
       software that operates and connects the networks, computers, and printers. DFAS
       maintains a limited number of mid-tier (minicomputer) systems at selected DFAS sites to
       handle specialized printing requirements (for example, paychecks). Other offloaded print
       services, such as bulk printing for DCPS Payroll Offices and printing of Leave and
       Earnings Statements, are performed on Personal Computer/workstation hardware



                                            16
       maintained by the Document Automation & Production Service (DAPS) at sites located
       in various U.S. and overseas geographical regions.
The two tiers of the DCPS architecture are connected through DoD-maintained networks
comprised of Internet Protocol (IP)-based (for example, Non-Classified Internet Protocol Router
Network (NIPRNET)) and Systems Network Architecture (SNA)-based (leased line) services.
Those networks connect DCPS to a wide variety of external, non-DCPS sites (mainframes, mid-
tiers, and PCs) that supply or exchange data with DCPS, mainly through electronic file transfers,
on a regular basis. Examples of external interface sites include the Defense Civilian Personnel
Data System, Thrift Savings Plan (TSP), Department of the Treasury, and non-DoD users such
as DoE, EPA, EOP, HHS, BBG, and VA.

The main technical components of DCPS include the following attributes.

       •   DCPS is housed in a separate logical domain on an IBM z9 mainframe
           computer located at DISA DECC-MECH,

       •   The IBM mainframe operating system software is z/OS release 1.9,

       •   DCPS is written in Common Business Oriented Language II,

       •   First point of entry security protection mechanisms are provided by Access
           Control Facility 2 (ACF2),

       •   DISA DECC-MECH provides four web servers that service all applications
           that support DCPS. Those servers accept the users’ secure web requests by
           supplying a menu screen with options for each application to the DCPS
           LOGON SCREEN, where individuals enter their ACF2 login user
           identification (ID) and passwords,

       •   Third-party software packages are used for DCPS process scheduling and
           monitoring, tax calculations, and mailing address verification.

The payroll offices and associated CSRs have access to DCPS through dedicated leased
lines, various DoD networks, and through Multi-Host Internet Access Portal, formally
known as Mainframe Internet Access Portal (MIAP). MIAP enables secure transaction
processing across the NIPRNET. Attachmate’s Reflection for the Web product was used
to establish a secure infrastructure utilizing Virtual Private Network (VPN) encryption
through the DoD DMZs. DCPS users interact directly with the DCPS application
through “3270” emulation using Personal Computer/Advanced Technology keyboard
mapping terminals or terminal simulation programs for communication with DCPS. This
permits application-defined formatted screens to be displayed with protected static text
and unprotected fields for data entry.




                                           17
In addition, the operating site is networked with TSOPE to support DCPS software
releases and production support.

   •   Terminals. Some DFAS DCPS users will use Internet Protocol Telenet RUMBA
       3270 emulation package across dedicated lines with extended attributes and
       PC/AT keyboard mapping, terminals, or terminal simulation programs (PCs) for
       communication with the application. This permits application-defined formatted
       screens to be displayed with protected static text and unprotected fields for data
       entry. Once the screen is formatted for a type of transaction, only the data entered
       is transmitted between the terminal and the mainframe.

   •   Printers. Printers provide printing support for majority of Payroll Office and
       Systems printing requirements. All printing goes through VPN IP Protocol.

   •   MIAP. DISA DECC-MECH provides access to DCPS through the MIAP. The
       DCPS user community may access the system using DISA’s inherited MIAP
       solution across the Internet using an authorized Internet browser. PKI
       Authentication is maintained at the MIAP server, and user ID/ password
       authentication is still maintained at the DCPS application logon.

The payroll offices are structured in accordance with DFAS standard staffing policy and
conduct business using standard operating and support procedures. They operate on a 24-
hour basis to provide payroll service to customers located in various time zones and are
responsible for the full range of pay processing functions and services. As circumstances
dictate, the three payroll offices serve as operational back-up sites for each other when
contingency procedures are executed by DFAS.

DoD Instruction 8500.2, “Information Assurance Implementation,” February 6, 2003,
(DoD I 8500.2) identifies specific control requirements DoD systems should achieve
based on their designated Mission Assurance Category (MAC). The DCPS application
Authority to Operate, dated July 29, 2005, is on file with the DFAS Chief Information
Officer, and reaccreditation package is awaiting approval. According to the current
DCPS System Security Authorization Agreement (SSAA), as of June 30, 2005, the MAC
level for the DCPS application is “MAC III” and its supporting enclave at DISA DECC-
MECH is “MAC II”.

DCPS Data Flow

The figure below depicts the flow of data to and from DCPS. DCPS customers and
technicians input data, including master employee and time and attendance logs. DCPS
outputs data to multiple systems and entities, including financial reporting entities, the
automated disbursing system and data storage.




                                            18
                                                       DCPS Interfaces


                   Defense Automated                                            Voluntary Benefit
                                                      ePayroll                                                OPM
                     Printing Service             Customer Systems
                                                                                     Portal
                                                                                TLC?FSA?V&D               (RITS, EHRI)

             Personnel                                                                                                             myPay
              Systems                                         National Guard
             (DCPDS)                                          Assoc of the US           National Guard
                                                                (NGAUS)                Dual Comp Office
            (PeopleSoft)
                                                                                                                                     Integrated
                                                                                                                                    Garnishment
           Federal                                                                                                                     System
          Reserve                                                                                                                       (IGS)
         Bank (FRB)             Nat’l Treas Emp
                                Union (NTEU)                                                                      FEHB Clearing-           National
                                                                                                                   House Project
                                                                                                                                           Finance
                                                                                                                                            Center
          Automated
          Disbursing
         System (ADS)
                                                                      DCPS                                                               Defense Manpower
                                                                                                                                        Data Center (DMDC)

                                Imaging


    DFAS Denver                                                                                                                             Defense Corporate
   Bonds/Dept Acct                                                                                                                          Data base




      DFAS Indy                                                                                                                              Treasury
   Acct edit/Dept Acct                                                                                                                       IRS/SSA
                                                                        Army Audit


       DFAS Columbus                                                                                                                      State
         Dept Acct                                                                                                                     Tax Entities
                                                    Field Level                      T&A SDA (19)
                         DFAS Cleveland            Accounting (26)
                           Dept Acct                                                                                 Local Tax
                                                                                                                      Entities




Overview of System Interfaces

DCPS is a combination of on-line and batch programs that support the requirements of a
bi-weekly payroll process for civilian employees in the Federal Government based on data feeds
from numerous personnel, accounting, and time and attendance systems. Transactions to update
employee data, adjust leave balances and payments, and report time and attendance may be input
daily to spread the on-line workload and to obtain labor data. However, the focal point of the
system is the bi-weekly process. Non bi-weekly process functions occur monthly, quarterly,
annually, or as required, and are in support of or a result of, multiple bi-weekly pay cycles.
DCPS supports a standard personnel interface, decentralized time and attendance reporting, and
the CSR structure.

DCPS accepts input from three primary areas: CSR, timekeepers, and personnel offices. DCPS
receives or creates approximately 81 interface files that, among other functions:

   •       update personnel information,
   •       upload time and attendance data,
   •       download information for checks to be printed,
   •       report accounting information to the Department of the Treasury,

                                                                                19
           •   reconcile enrollment information with health care providers, and
           •   download general accounting information to DoD agencies.

Automatic electronic files transfer directly to and from the host mainframe computer is
preferred for input and output file interfaces. Output files are automatically transmitted
to sites and activities using common file transfer protocols, through communication lines
of files written to magnetic tape at the host (per data in File Transfer Tables). Interface
partners must provide File Transfer Table data to the TSOPE for table updates. For files
not automatically transferred, the activity receiving DCPS data is responsible for
accessing the host computer to retrieve (“pull”) the output file(s) from the host. In
addition, the activity creating payroll data is responsible for developing and sending a
DCPS input file by secure means to the processing center supporting the payroll office.
The payroll activities and the submitting activities establish mutually agreeable schedules
to ensure timely receipt of data necessary to support DCPS payroll processing. TSOPE is
responsible for executing and monitoring interface processing, as well as resolving
interface processing errors or problems.

B. Control Environment

DCPS Management Oversight

The DFAS Information and Technology Directorate is responsible for reviewing and
approving DCPS security policy and its certification and accreditation plan, and granting
DCPS authority to operate. TSOPE provides not only DCPS software engineering
support, but also production support and customer service. DCPS is maintained and
executed on a DISA mainframe platform at DISA DECC-MECH, Pennsylvania. DISA
DECC-MECH is part of the Center for Computing Services within the Global
Information Grid Combat Support Directorate, which is a Strategic Business Unit within
DISA. DFAS and DISA have documented DCPS support services provided by DISA in
a service-level agreement that is reviewed by both agencies on an annual basis. DFAS
and DISA have documented policies and procedures describing their respective roles and
responsibilities in supporting payroll functions. DISA and DFAS are Defense agencies
that report to the Office of the Secretary of Defense.

Personnel Policies and Procedures

DFAS Payroll Offices and TSOPE

Payroll office employees and contractors are required to review applicable administrative
orders, policies, and procedures with the Human Resource Office and must complete
appropriate forms to gain access to DFAS systems. New employees must meet with the
Information Security (IS) Manager. The IS Manager is responsible for: (1) providing
basic system security awareness training, (2) securing civilians’ and contractors’
signatures on an Automated Data Processing Security Awareness disclosure form, (3)
identifying who an employees’ Terminal Area Security Officer (TASO) is and what the
                                            20
TASO responsibilities are, and (4) notifying appropriate personnel when personnel
actions occur. Those actions include providing access to or immediately terminating
employee or contractor access to DFAS automated information system resources. The
payroll offices and TSOPE facilities require a background check before a candidate can
become an employee.

DISA DECC-MECH

The security manager is responsible for processing and vetting new employees and contractors
who are given access to DISA DECC-MECH facilities. All contractors and employees are
required, at a minimum, to have a secret clearance and a positive National Agency Check. For
employees, the security manager coordinates with the personnel office; and for contractors, the
security manager coordinates with the contracting officer. For contractors, the security manager
is responsible for confirming that all contractors are assigned to a valid contract, and have been
approved to work at DISA DECC-MECH.

All new employees are required to sign DISA Form 312, “Classified Information Nondisclosure
Agreement,” which serves as a nondisclosure agreement for sensitive and classified information.
When employees are terminated, DISA requires them to sign the same Form 312 to confirm their
understanding of the requirements placed upon them. New employees and contractors are
required to complete a DD Form 2875, “System Authorization Access Request” to gain access to
DISA systems. The security manager is responsible for vetting those forms and confirming that
the person requesting access has the proper clearance for the level of access requested. For
contractors, the security manager confirms the length of the contract and determines when
system accounts should expire. All new employees and contractors must complete security
awareness training.

C. Monitoring

Management and supervisory personnel at DFAS and DISA monitor the performance quality and
internal control environment as a normal part of their activities. DFAS and DISA have
implemented a number of management, financial, and operational reports that help monitor the
performance of payroll processing, as well as the DCPS system. These reports are reviewed
periodically and action is taken as necessary. All procedural problems and exceptions to normal
and scheduled processing are logged, reported, and resolved in a timely manner, with remedial
action taken as necessary. In addition, several organizations within DoD perform monitoring
activities associated with DCPS-related internal controls.

DISA Office of Inspector General

The DISA OIG is an independent office within DISA that conducts internal audits, inspections,
and investigations. DISA-related components that support DCPS are part of the DISA OIG audit
universe and are subject to audits, inspections, and investigations conducted by this office.




                                            21
Field Security Operations

The Field Security Operations (FSO) conducts periodic System Readiness Reviews of DISA
systems to determine whether those systems are in compliance with documented Standard
Technical Implementation Guides (STIGs). The DCPS system components maintained by DISA
are subject to FSO reviews. The FSO is independent of the DISA DECC-MECH management
and does not maintain or configure DCPS.

DoD Office of Inspector General

Congress established the DoD OIG under the Inspector General Act of 1978 to conduct
and supervise audits and investigations related to DoD programs and operations. The
DoD OIG reports directly to the Secretary of Defense and is independent of DFAS and
DISA. DCPS is part of the DoD OIG audit universe and is subject to financial,
operational, and information technology audits, reviews, and special assessment projects.

Certification and Accreditation

DoD Instruction 5200.40, “Department of Defense Information Technology Security
Certification and Accreditation Process (DITSCAP),” December 30, 1997, established a
standard Department-wide process, set of activities, general tasks, and management
structure to certify and accredit information systems that will maintain the information
assurance and security posture of the Defense information infrastructure throughout the
life cycle of each system. The certification process is a comprehensive evaluation of the
technical and non-technical security features of an information system and other
safeguards to establish the extent to which a particular design and implementation meets
specified security requirements and covers physical, personnel, administrative,
information, information systems, and communications security. The accreditation
process is a formal declaration by the designated approving authority that an information
system is approved to operate in a particular security mode using a prescribed set of
safeguards at an acceptable level of risk.

DCPS is subject to the requirements of DITSCAP and must meet all DITSCAP
certification and accreditation requirements throughout its lifecycle. As part of the DCPS
DITSCAP, DFAS and DISA have developed separate SSAAs for the DCPS application
and for the system enclave within DISA that supports the application. Each SSAA is a
living document that represents an agreement between the designated approving
authority, certifying authority, user representative, and program manager. Among other
items, the DCPS SSAA documents DCPS’ mission description and system identification,
environment description, system architecture description, system class, system security
requirements, organizations and resources, and DITSCAP plan. On a periodic basis, the
system security officer must verify and validate DCPS’ compliance with the information
in the SSAA by conducting vulnerability evaluations, security testing and evaluation,
penetration testing, and risk management reviews. The DCPS application SSAA was
issued on June 30, 2005, and is valid for three years. The DISA DECC-MECH enclave
SSAA was issued on February 27, 2006, and is valid for three years. The DCPS
application Authority to Operate (ATO), dated 29 July 2005, is on file with the

                                           22
Information Assurance Manager. The DCPS ATO will be included in the annual
Mechanicsburg Unclassified Enclave SSAA package update that is submitted to the
DISA Designated Approval Authority (DAA).

D. Risk Assessment

The DITSCAP, discussed in subsection C above, includes several activities that enable
DFAS and DISA to assess risks associated with DCPS. The DCPS application and
enclave SSAAs document threats to DCPS and its supporting technical environment.
The SSAAs also contain residual risk assessments that document vulnerabilities noted
during DCPS tests and analyses. The information contained in the SSAAs is updated on
a periodic basis. Personnel from DFAS TSOPE and DISA DECC-MECH participate in
risk assessment activities.

E. Information and Communication

DCPS is the information system used to process civilian payroll for DoD and payroll
customers from other Federal entities including the DoE, EPA, EOP, HHS, BBG, and
VA. Payroll processing involving approximately 81 data files that interface with DCPS.
Those interfaces are linked to other DoD financial systems, as well as external systems.
The majority of the interfaces is automated and must conform to documented interface
specifications developed by the TSOPE. The TSOPE is responsible for executing and
monitoring all DCPS automated interfaces.

The support relationship between DFAS and DECC-MECH is documented through a service-
level agreement that includes various DFAS and DECC-MECH points of contact and liaisons
that should be used when DCPS issues arise. DECC-MECH has assigned a customer
relationship manager to work with TSOPE to resolve any DCPS processing problems or
concerns.

Directors and managers from TSOPE and the DISA DECC-MECH meet weekly to discuss
DCPS processing issues. The Configuration Control Board; comprised of customer agencies,
DISA DECC-MECH, TSOPE and payroll office personnel; review and approve functional and
systemic changes to DCPS. The payroll offices have help desk functions to identify and track
DCPS user issues and problems and communicate those issues and problems to DISA DECC-
MECH for resolution.

F. Control Activities

The DCPS control objectives and related control activities provided by the DoD OIG and
approved by DFAS and DISA are included in Section III of this report, “Control Objectives,
Control Activities, and Tests of Operating Effectiveness,” to eliminate the redundancy that
would result from listing them in this section and in Section III. Although the control objectives
and related controls are included in Section III, they are nevertheless, an integral part of the
description of controls.

                                            23
G. User Organization Control Considerations

DFAS and DISA control activities related to DCPS were designed with the assumption that
certain controls would be placed in operation at user organizations. This section describes some
of the controls that should be in operation at user organizations to complement the controls at
DFAS and DISA.

User organizations should have policies and procedures in place to ensure that:

   •   the servicing payroll office is notified of all terminated employees with access to DCPS;

   •   the local Human Resource Office is notified of all terminated employees to ensure the
       employees are removed from the Master Employee Record in a timely manner;

   •   all time entered by timekeepers is approved and authorized by appropriate user
            organization management;

   •   all Master Employee Records created represent valid employees;

   •   all changes to the Master Employee Record are approved by appropriate user
       organization personnel prior to payroll processing;

   •   segregation of duties exists between those at the user organization who enter time and
       those who enter or change Master Employee Records;

   •   if a pseudo Social Security Number (SSN) is created, the pseudo SSN has been
       authorized by appropriate user organization personnel and, if necessary, is accurately tied
       to a primary and valid SSN;

   •   user organization managers review the “Control of Hours” and other payroll-related
       reports for appropriateness and accuracy;

   •   all invalid time entry interface feeds are reviewed and processed by appropriate
       user organization personnel in a controlled manner; and

   •   all invalid personnel record interface feeds are resolved in the interface system by
       user organization personnel with appropriate approval by user organization
       management.




                                            24
Section III: Control Objectives, Control Activities, and Tests
                 of Operating Effectiveness




                              25
III. Control Objectives, Control Activities, and Tests of
     Operating Effectiveness

A. Scope Limitations

The control objectives documented in this section were specified by the DoD OIG. As
described in Section II, DCPS interfaces with many systems. The controls described and
tested in this section of the report are limited to those computer systems, operations, and
processes directly related to DCPS itself. We did not perform any procedures to evaluate
the integrity and accuracy of the data contained in DCPS. The controls related to the
source and destination systems associated with the DCPS interfaces are specifically
excluded from this review. In addition, we did not perform procedures to evaluate the
effectiveness of data input, processing, and output controls within those interface
systems. However, we did perform procedures to evaluate DCPS controls over data input
from and output to the interfacing systems.

DFAS and DISA provided the Control Objective and Control Activity description
columns. We populated the Tests Performed and Results of Testing columns. We
conducted our audit for the purpose of forming an opinion on the description of the
DCPS general and application controls at DFAS and DISA.




                                            27
B. Control Objectives, Control Activities, and Tests of Operating Effectiveness

Application Control Objectives, Control Activities, Tests Performed, and Results of Testing


     No.        Control Objective                    Control Activities                          Tests Performed                    Results of Testing


1.         Physical Access

1          Controls prevent unauthorized   1.1 - Policies and procedures are          Inquired with appropriate personnel       DFAS Indianapolis:
           physical access to DCPS data.   documented to describe that personnel      and scan policies and procedures to
                                                                                                                                Documented policies and
                                           payroll records and other sensitive        confirm that personnel payroll records
                                                                                                                                procedures for the physical
                                           information is maintained and              and other sensitive information is
                                                                                                                                security were not in place.
                                           disposed of in accordance with             maintained and disposed of in
                                           Government-wide and agency-specific        accordance with Government-wide           DFAS Cleveland:
                                           guidelines.                                and agency-specific guidelines.
                                                                                                                                No relevant exceptions
                                                                                      [All payroll offices]                     noted.

                                           1.2 - All documents and storage media      Confirmed through corroborative           DFAS Indianapolis:
                                           are stored in physically and               inquiry and inspection of storage
                                                                                                                                We noted payroll
                                           environmentally secure containers.         process documentation that
                                                                                                                                processing locations were
                                                                                      documents and storage media are
                                                                                                                                not physically secured. In
                                                                                      stored properly in environmentally
                                                                                                                                addition, file cabinets
                                                                                      secure containers.
                                                                                                                                containing payroll
                                                                                      [All payroll offices]                     information were not
                                                                                                                                secured.
                                                                                                                                DFAS Cleveland:
                                                                                                                                No relevant exceptions
                                                                                                                                noted.
                                           1.3 - All visitors to the payroll office   Inquired with appropriate personnel       DFAS Indianapolis:
                                           must sign in and out with the              and obtained and inspected a sample
                                                                                                                                A visitor access process
                                           authorized security personnel.             of visitor logs from the payroll office
                                                                                                                                was in place at DFAS
                                                                                      to confirm that visitors must sign-in
                                                                                                                                Indianapolis; however,
                                                                                      with authorized security personnel.
                                                                                                                                individuals do not wear
                                                                             28
No.   Control Objective             Control Activities                         Tests Performed                   Results of Testing

                                                                                                             badges that identify them
                                                                                                             as visitors, and we did not
                                                                    [All payroll offices]
                                                                                                             receive visitor logs.
                                                                                                             DFAS Cleveland:
                                                                                                             We noted the following for
                                                                                                             visitor access testing:
                                                                                                              • 1 of 22 sample of dates
                                                                                                                tested did not have the
                                                                                                                visited organization on
                                                                                                                the visitor badge log,
                                                                                                              • 4 of 22 sample of dates
                                                                                                                tested did not have the
                                                                                                                authorized sponsor on
                                                                                                                visitor logs,
                                                                                                              • 1 of 22 sample of dates
                                                                                                                tested did not have the
                                                                                                                reason for the visit on
                                                                                                                the visitor logs,
                                                                                                              • 1 of 22 sample of dates
                                                                                                                tested did not have the
                                                                                                                floor visited on the
                                                                                                                visitor badge log, and
                                                                                                              • 1 of 22 sample of dates
                                                                                                                tested did not have the
                                                                                                                visitor badge turn-in
                                                                                                                date on the visitor
                                                                                                                badge log.
                          1.4 - All terminals and payroll records   Confirmed through corroborative          DFAS Indianapolis:
                          are located in physically secured         inquiry with appropriate personnel
                                                                                                             We noted physically
                          locations.                                that the terminal rooms are physically
                                                                                                             unsecured payroll
                                                                    secure.
                                                                                                             processing locations. In
                                                          29
No.   Control Objective            Control Activities                         Tests Performed                   Results of Testing

                                                                                                            addition, we noted
                                                                                                            unsecured file cabinets that
                                                                   [All payroll offices]                    stored payroll information.
                                                                                                            DFAS Cleveland:
                                                                                                            No relevant exceptions
                                                                                                            noted.

                          1.5 - Users dispose of personnel and     Confirmed through corroborative          No relevant exceptions
                          payroll records in accordance with       inquiry with appropriate personnel       noted.
                          Government-wide and agency-specific      that payroll records are disposed of
                          guidelines.                              using destruction bins in accordance
                                                                   with Government-wide and agency-
                                                                   specific guidelines.

                                                                   [All payroll offices]


                          1.6 - Each terminal automatically        Confirmed through corroborative          No relevant exceptions
                          disconnects from the system when not     inquiry with appropriate personnel       noted.
                          used after a specified period of time.   that each terminal automatically
                                                                   disconnects from the system when not
                                                                   used after a specified period of time.

                                                                   [All payroll offices]


                          1.7 - When terminals are not in use,     Confirmed through corroborative          No relevant exceptions
                          terminal rooms are locked, or the        inquiry with appropriate personnel       noted.
                          terminals are can be secured.            that when terminals are not in use,
                                                                   terminal rooms are locked, or the
                                                                   terminals can be secured.

                                                                   [All payroll offices]

                                                          30
    No.        Control Objective                    Control Activities                        Tests Performed                     Results of Testing


2         System Access

2         Controls prevent unauthorized   2.1 - The ability to view, modify, or    Inquired with appropriate personnel        DFAS Indianapolis:
          system access to DCPS data.     transfer information contained in the    and inspected a random sample of
                                                                                                                              Non-payroll users
                                          payroll master files is restricted to    SAARs to confirm the following.
                                          authorized personnel.                                                               DFAS was unable to
                                                                                       •    The payroll master file and
                                                                                                                              provide 11 of 45 selected
                                          Each operator is required to have a               output is restricted to
                                                                                                                              non-payroll user access
                                          completed and authorized                          authorized personnel.
                                                                                                                              forms.
                                          authorization form before being
                                          granted access to the system.                •    Each operator has                 We noted the following for
                                                                                            authorization before being        the 34 non-payroll user
                                          Authorization profiles of users limit             granted access to the system.     access forms provided:
                                          what transactions data entry personnel
                                          can enter.                                   •    User profiles limit the type of    • 6 of 34 non-payroll
                                                                                            transaction data entry               user forms indicated a
                                                                                            personnel can enter into             user type that did not
                                                                                            DCPS.                                match the user type in
                                                                                                                                 DCPS.
                                                                                   [All payroll offices]
                                                                                                                               • 2 of 34 non-Payroll
                                                                                                                                 user forms indicated
                                                                                                                                 authorization types
                                                                                                                                 that did not match the
                                                                                                                                 user type in the list of
                                                                                                                                 DCPS users.
                                                                                                                               • 7 of 34 non-payroll
                                                                                                                                 user forms were
                                                                                                                                 missing the DCPS
                                                                                                                                 Security Awareness
                                                                                                                                 training completion
                                                                                                                                 date.
                                                                                                                               • 1 of 34 non-payroll
                                                                                                                                 user access forms was
                                                                                                                                 missing the user’s

                                                                          31
No.   Control Objective   Control Activities        Tests Performed       Results of Testing

                                                                          signature.

                                                                       • 1 of 34 non-payroll
                                                                         user access forms was
                                                                         missing the
                                                                         supervisor’s signature.

                                                                       • 5 of 34 non-payroll
                                                                         user access forms were
                                                                         missing the date of the
                                                                         supervisor’s approval.

                                                                       • 13 of 34 non-payroll
                                                                         user access forms were
                                                                         missing the security
                                                                         manager’s signature.

                                                                       • 14 of 34 non-payroll
                                                                         user access forms were
                                                                         missing the date of the
                                                                         security manager’s
                                                                         approval.

                                                                       • 7 of 34 non-payroll
                                                                         user access requests
                                                                         were processed using
                                                                         the incorrect form.
                                                                         Users obtained access
                                                                         using the DCPS
                                                                         Security Access
                                                                         Questionnaire.
                                                                      Payroll users
                                                                      DFAS was unable to
                                                                      provide 5 of 45 selected
                                                                      payroll user access forms.
                                               32
No.   Control Objective   Control Activities        Tests Performed      Results of Testing

                                                                      We noted the following for
                                                                      the 40 payroll user access
                                                                      forms provided:

                                                                       • 13 of 40 payroll users
                                                                         did not complete the
                                                                         correct form. Users
                                                                         obtained access using
                                                                         non-payroll user
                                                                         access forms.

                                                                       • 17 of 40 payroll user
                                                                         access forms indicated
                                                                         a user type that did not
                                                                         match the user type
                                                                         listed in DCPS.

                                                                       • 6 of 40 payroll user
                                                                         access forms were
                                                                         missing the DCPS
                                                                         Security Awareness
                                                                         training completion
                                                                         date.

                                                                       • 3 of 40 payroll user
                                                                         access forms were
                                                                         missing the date of the
                                                                         supervisor’s signature.

                                                                       • 5 of 40 payroll user
                                                                         access forms were
                                                                         missing the security
                                                                         manager’s signature.

                                                                       • 7 of 40 payroll user
                                                                         access forms were
                                               33
No.   Control Objective   Control Activities        Tests Performed       Results of Testing

                                                                          missing the date of the
                                                                          security manager’s
                                                                          approval.

                                                                       • 4 of 40 payroll user
                                                                         access request were
                                                                         processed using the
                                                                         incorrect form. Users
                                                                         obtained access using
                                                                         the DCPS Security
                                                                         Access Questionnaire.

                                                                      DFAS Cleveland:
                                                                      Non-payroll users
                                                                      DFAS was unable to
                                                                      provide 4 of 45 selected
                                                                      non-payroll user access
                                                                      forms.
                                                                      We noted the following for
                                                                      the 41 non-payroll user
                                                                      access forms provided:
                                                                       • 5 of 41 non-payroll
                                                                         user forms indicated a
                                                                         user type that did not
                                                                         match the user type in
                                                                         DCPS.

                                                                       • 4 of 41 non-payroll
                                                                         user forms indicated
                                                                         authorization types
                                                                         that did not match the
                                                                         authorization type in
                                                                         DCPS.

                                               34
No.   Control Objective   Control Activities        Tests Performed     Results of Testing


                                                                      • 9 of 41 non-payroll
                                                                        user forms were
                                                                        missing the DCPS
                                                                        Security Awareness
                                                                        training completion
                                                                        date.

                                                                      • 1 of 41 non-payroll
                                                                        user access forms was
                                                                        missing the
                                                                        supervisor’s signature.

                                                                      • 5 of 41 non-payroll
                                                                        user access forms were
                                                                        missing the date of the
                                                                        supervisor’s approval.

                                                                      • 10 of 41 non-payroll
                                                                        user access forms were
                                                                        missing the security
                                                                        manager’s signature.

                                                                      • 13 of 41 non-payroll
                                                                        user access forms were
                                                                        missing the date of the
                                                                        security manager’s
                                                                        approval.

                                                                      • 6 of 41 non-payroll
                                                                        user access requests
                                                                        were processed using
                                                                        the incorrect form.
                                                                        Users obtained access
                                                                        using the DCPS
                                                                        Security Access
                                                                        Questionnaire.
                                               35
No.   Control Objective   Control Activities        Tests Performed       Results of Testing

                                                                      Payroll users
                                                                      DFAS was unable to
                                                                      provide 5 of 45 selected
                                                                      payroll user access forms.
                                                                      We noted the following for
                                                                      the 40 Payroll user access
                                                                      forms provided:
                                                                       • 14 of 40 payroll user
                                                                         forms indicated a user
                                                                         type that did not match
                                                                         the user type listed in
                                                                         DCPS.
                                                                       • 5 of 40 payroll user
                                                                         forms were missing
                                                                         the user DCPS
                                                                         Security Awareness
                                                                         training completion
                                                                         date.
                                                                       • 1 of 40 payroll user
                                                                         access forms was
                                                                         missing the user’s
                                                                         signature.

                                                                       • 3 of 40 payroll user
                                                                         access forms were
                                                                         missing the date of the
                                                                         supervisor’s approval.

                                                                       • 5 of 40 payroll user
                                                                         access forms were
                                                                         missing the security
                                                                         manager’s signature.


                                               36
No.   Control Objective   Control Activities        Tests Performed     Results of Testing


                                                                      • 8 of 40 payroll user
                                                                        access forms were
                                                                        missing the date of the
                                                                        security manager’s
                                                                        approval.

                                                                      • 12 of 40 payroll access
                                                                        request forms were
                                                                        processed using the
                                                                        incorrect non-payroll
                                                                        user form for payroll
                                                                        user type access.




                                               37
No.   Control Objective             Control Activities                          Tests Performed                   Results of Testing


                          2.2 - Policies and procedures are          Inquired with appropriate personnel       No relevant exceptions
                          documented to describe how                 and inspected policies and procedures     noted.
                          application users are appropriately        to confirm that users are appropriately
                          identified and authenticated. Access to    identified and authenticated and that
                          the application and output is restricted   access to the application and output is
                          to authorized users for authorized         restricted to authorized users for
                          purposes.                                  authorized purposes.

                                                                     [All payroll offices]


                          2.3 - On-line access logs are              Inquired with appropriate personnel       No relevant exceptions
                          maintained by the System                   and inspected access logs and e-mails     noted.
                          Management Office and are reviewed         for unauthorized access attempts to
                          regularly for unauthorized access          confirm that logs are maintained by
                          attempts.                                  the System Management Office and
                                                                     are reviewed regularly for
                                                                     unauthorized access attempts.

                                                                     [All payroll offices]


                          2.4 - Remote terminal connections are      Inquired with appropriate personnel       No relevant exceptions
                          secured and connected through              and inspected remote terminal             noted.
                          Government-issued computers.               connections to confirm that they are
                                                                     secured and are connected through
                                                                     Government computers.


                                                                     Obtained a complete listing of all new
                                                                     DFAS Civilian Pay users with remote
                                                                     access from10/1/2007 to 3/31/2008.
                                                                     Selected a sample of users and
                                                                     obtained the remote access packages
                                                                     to confirm that it included a:
                                                          38
    No.        Control Objective                 Control Activities                        Tests Performed                    Results of Testing


                                                                                    •    Remote User Access Request
                                                                                         Form and associated
                                                                                         approvals and
                                                                                    •    Memorandum of Agreement
                                                                                [All payroll offices]


                                        2.5 - Data entry terminals are          Confirmed through corroborative           DFAS Indianapolis:
                                        connected to the system only during     inquiry with appropriate personnel
                                                                                                                          We noted no physical
                                        specified periods of the day, which     that terminals are not authorized to be
                                                                                                                          security controls in place
                                        correspond with the business hours of   connected after business hours.
                                                                                                                          to restrict after business
                                        the data entry personnel.
                                                                                                                          hours access to the
                                                                                [All payroll offices]
                                                                                                                          terminals.
                                                                                                                          DFAS Cleveland:
                                                                                                                          No relevant exceptions
                                                                                                                          noted.


                                        2.6 - User IDs and passwords are        Confirmed through corroborative           No relevant exceptions
                                        required to gain access to the DCPS     inquiry with appropriate personnel        noted.
                                        application.                            and inspected the DCPS log-in screen
                                                                                to confirm that user IDs and
                                                                                passwords are required to gain access
                                                                                to the DCPS application.

                                                                                [All payroll offices]


3         Restricted Access

3         Controls provide reasonable   3.1 - The detailed 592 Reconciliation   Inquired with appropriate personnel       DFAS Indianapolis:
          assurance that DCPS           shows all pertinent data describing     and inspected a random sample of 592
                                                                       39
No.         Control Objective                    Control Activities                         Tests Performed                   Results of Testing

      authorized users are restricted   that the payroll (including total        Reconciliations for each database to     DFAS was unable to
      to access only areas needed to    disbursements, Retirement, TSP,          confirm the following:                   provide 8 of 45 592
      complete their assigned           Bonds, and other withholdings) and                                                Reconciliations requested.
      responsibilities, and controls    related balances are reconciled in the
      maintain segregation of duties.   appropriate accounting period to          • The detailed payroll reconciliation    • 1 of 45 592
                                        corresponding general ledger accounts       shows pertinent data describing          Reconciliations did not
                                        within DCPS. All reconciling items          that the payroll (including total        balance and did not
                                        are investigated and cleared in a           disbursements, Retirement, TSP,          have a supplemental
                                        timely manner by supervisory                Bonds, and other withholdings)           592 Reconciliation
                                        personnel, prior to disbursement.           and related balances are                 prepared.
                                                                                    reconciled in the appropriate
                                                                                    accounting period to                   • 1 of 45 592
                                                                                    corresponding general ledger             Reconciliations did not
                                                                                    accounts within DCPS.                    contain a signed report
                                                                                                                             of withholdings.
                                                                                  • Each 592 Reconciliation is
                                                                                                                          DFAS Cleveland:
                                                                                    approved by management prior to
                                                                                    disbursement.                         No relevant exceptions
                                                                                                                          noted.
                                                                                  • Reconciling items are investigated
                                                                                    and cleared in a timely manner by
                                                                                    supervisory personnel, prior to
                                                                                    disbursement.

                                                                                 [All payroll offices]


                                        3.2 - Summary payroll reports            Inquired with appropriate personnel      DFAS Indianapolis:
                                        including Online Queries (OLQs) of       and inspected summary reports and
                                                                                                                          592 Reconciliations
                                        total disbursements, Retirement, TSP,    OLQs reviewed and approved by
                                        Bonds, and other withholdings are        management prior to disbursement.        DFAS personnel used the
                                        reviewed and approved by                                                          592 Balancing Desk
                                        management prior to disbursement.        [All payroll offices]                    Guide; however, a policy
                                                                                                                          regarding document
                                                                                                                          retention was not in place.
                                                                                                                          Specifically, there was no
                                                                       40
No.   Control Objective   Control Activities        Tests Performed       Results of Testing

                                                                      requirement to retain the
                                                                      printed and reviewed
                                                                      report checklist or the
                                                                      signed Report of
                                                                      Withholdings.

                                                                      Management Summary
                                                                      Reports

                                                                      No policy was in place that
                                                                      required a complete and
                                                                      accurate listing of
                                                                      management summary
                                                                      reports generated and
                                                                      reviewed by Civilian Pay
                                                                      Processing Personnel.

                                                                      DFAS was unable to
                                                                      provide the Separation
                                                                      Actions without
                                                                      Separations Codes Desk
                                                                      Guide.
                                                                      The Less than $1 Over
                                                                      $5,000 Desk Guide did not
                                                                      have an increased
                                                                      threshold amount of
                                                                      $10,000 in the review
                                                                      procedures.
                                                                      DFAS Cleveland:
                                                                      DD 592 Reconciliations
                                                                      DFAS personnel used the
                                                                      Balancing Desk Guide;
                                                                      however, a policy

                                               41
No.   Control Objective   Control Activities        Tests Performed       Results of Testing

                                                                      regarding document
                                                                      retention was not in place.
                                                                      Specifically, there was no
                                                                      requirement to retain the
                                                                      printed and reviewed
                                                                      report checklist or the
                                                                      signed Report of
                                                                      Withholdings.

                                                                      Management Summary
                                                                      Reports

                                                                      No policy was in place that
                                                                      required a complete and
                                                                      accurate listing of
                                                                      management summary
                                                                      reports generated and
                                                                      reviewed by Civilian Pay
                                                                      Processing personnel

                                                                      DFAS was unable to
                                                                      provide the Desk Guides
                                                                      for the following critical
                                                                      reports:

                                                                      •   Separation Action
                                                                          without Separation
                                                                          Codes Desk Guide,
                                                                      •   Dual SSN/Mongoose
                                                                          Desk Guide, and
                                                                      •   P6702R01 - Invalid
                                                                          SSN/Deceased
                                                                          Employees/Negative
                                                                          Year-To-Date Desk
                                                                          Guide.

                                               42
    No.         Control Objective                      Control Activities                         Tests Performed                   Results of Testing


4         System and Software Changes

4         Controls provide reasonable        Not applicable as this is tested by the   Not Applicable as this is tested by the   Not Applicable as this is
          assurance that system and          General Computer Controls. Please         General Computer Controls. Please         tested by the General
          software changes are               see control objectives 13.1-13.6          see control objectives 13.1-13.6          Computer Controls. Please
          authorized, effectively and                                                                                            see control objectives
          efficiently implemented, tested,                                                                                       13.1-13.6
          and documented. (General
          Computer controls only)

5                                                        [ This control objective was intentionally left blank]

6         Enterprise-Wide Security Program

6         Controls include an enterprise-    6.1 - A Security Program has been         Inquired with appropriate personnel to    No relevant exceptions
          wide security program to           prepared specific to payroll operations   confirm a Security Program for            noted.
          review and manage risks and        and is approved by management. The        payroll operations exists. Obtained
          ensure that policies comply        plan is regularly tested and updated to   and inspected the date of the plans and
          with laws and regulations.         reflect the results of such tests.        corroborated with management that
                                                                                       these plans are current, contain up-to-
                                                                                       date information, and are readily
                                                                                       available to all relevant personnel.
                                                                                       Inquired with management to confirm
                                                                                       that the plans have been approved.


                                                                                       [All payroll offices]


7         Personnel and Payroll Data

7         Controls provide reasonable        7.1 - Policies and procedures are         Inquired with appropriate personnel       No relevant exceptions
          assurance that personnel and       documented to describe that only valid    and inspected policies and procedures     noted.
          payroll data processed and         and accurate changes are made to the      to confirm that only valid changes are
          stored at the DFAS and DISA        payroll master files and payroll          made to the payroll master files and
                                                                              43
No.         Control Objective                      Control Activities                       Tests Performed                    Results of Testing

      General Computer Control           withholding tables.                     payroll withholding tables.
      locations are valid, accurate
      and authorized, complete, and                                              [All payroll offices]
      timely, and support financial
      reporting requirements, and        7.2 - Programmed validation and edit    Inquired with appropriate personnel       No relevant exceptions
      provide sufficient audit trails.   checks identify erroneous data.         and observed programmed validation        noted.
                                                                                 and edit checks to confirm that they
                                                                                 identify erroneous data entered
                                                                                 directly into DCPS.


                                                                                 [All payroll offices]


                                         7.3 - The ability to view, modify, or   Inquired with appropriate personnel       DFAS Indianapolis:
                                         transfer information contained in the   and inspected a random sample of
                                                                                                                           Non-payroll users
                                         payroll master files is restricted to   SAARs to confirm the following.
                                         authorized personnel.                                                             DFAS was unable to
                                                                                     •    The payroll master file and
                                                                                                                           provide 11 of 45 selected
                                                                                          output is restricted to
                                                                                                                           non-payroll user access
                                                                                          authorized personnel.
                                                                                                                           forms.
                                                                                     •    Each operator is authorized      We noted the following for
                                                                                          before being granted access      the 34 non-payroll user
                                                                                          to the system.                   access forms provided:
                                                                                     •    Confirm user profiles limit       • 6 of 34 non-payroll
                                                                                          the type of transactions data       user forms indicated a
                                                                                          entry personnel can enter into      user type that did not
                                                                                          DCPS.                               match the user type in
                                                                                                                              DCPS.
                                                                                 [All payroll offices]
                                                                                                                            • 7 of 34 non-payroll
                                                                                                                              user forms were
                                                                                                                              missing the DCPS
                                                                                                                              Security Awareness


                                                                         44
No.   Control Objective   Control Activities        Tests Performed     Results of Testing



                                                                        training completion
                                                                        date.
                                                                      • 2 of 34 non-payroll
                                                                        user forms indicated a
                                                                        user type that did not
                                                                        match the user type in
                                                                        DCPS.

                                                                      • 1 of 34 non-payroll
                                                                        user access forms was
                                                                        missing the user’s
                                                                        signature.

                                                                      • 1 of 34 non-payroll
                                                                        user access forms was
                                                                        missing the
                                                                        supervisor’s signature.

                                                                      • 5 of 34 non-payroll
                                                                        user access forms were
                                                                        missing the date of the
                                                                        supervisor’s approval.

                                                                      • 13 of 34 non-payroll
                                                                        user access forms were
                                                                        missing the security
                                                                        manager’s signature.

                                                                      • 14 of 34 non-payroll
                                                                        user access forms were
                                                                        missing the date of the
                                                                        security manager’s
                                                                        approval.


                                               45
No.   Control Objective   Control Activities        Tests Performed       Results of Testing


                                                                       • 7 of 34 non-payroll
                                                                         user access requests
                                                                         were processed using
                                                                         the incorrect form.
                                                                         User obtained access
                                                                         using the DCPS
                                                                         Security Access
                                                                         Questionnaire.
                                                                      Payroll users
                                                                      DFAS was unable to
                                                                      provide 5 of 45 selected
                                                                      payroll user access forms.

                                                                      We noted the following for
                                                                      the 40 payroll user access
                                                                      forms provided:

                                                                       • 13 of 40 payroll user
                                                                         access forms were the
                                                                         incorrect form. Users
                                                                         obtained access using
                                                                         non-payroll user
                                                                         access forms.

                                                                       • 17 of 40 payroll user
                                                                         access forms indicated
                                                                         user types that did not
                                                                         match the user type in
                                                                         listed in DCPS.

                                                                       • 6 of 40 payroll user
                                                                         access forms were
                                                                         missing the DCPS
                                                                         Security Awareness
                                                                         completion date.
                                               46
No.   Control Objective   Control Activities        Tests Performed       Results of Testing



                                                                       • 3 of 40 payroll user
                                                                         access forms were
                                                                         missing the date of the
                                                                         supervisor’s signature.

                                                                       • 5 of 40 payroll user
                                                                         access forms were
                                                                         missing the Security
                                                                         manager’s signature.

                                                                       • 7 of 40 payroll user
                                                                         access forms were
                                                                         missing the date of the
                                                                         security manager’s
                                                                         approval.

                                                                       • 4 of 40 payroll user
                                                                         access forms processed
                                                                         were incorrect forms.
                                                                         Users obtained access
                                                                         using the DCPS
                                                                         Security
                                                                         Questionnaire.
                                                                      DFAS Cleveland:
                                                                      Non-payroll users
                                                                      DFAS was unable to
                                                                      provide 4 of 45 selected
                                                                      non-payroll user access
                                                                      forms.
                                                                      We noted the following for
                                                                      the 41 non-payroll user
                                                                      access forms provided:

                                               47
No.   Control Objective   Control Activities        Tests Performed     Results of Testing


                                                                      • 5 of 41 non-payroll
                                                                        user forms indicated a
                                                                        user type that did not
                                                                        match the user type in
                                                                        DCPS.
                                                                      • 4 of 41 non-payroll
                                                                        user forms indicated
                                                                        authorization types
                                                                        that did not match the
                                                                        authorization type in
                                                                        DCPS.
                                                                      • 9 of 41 non-payroll
                                                                        user forms were
                                                                        missing the completion
                                                                        date for the DCPS
                                                                        Security Awareness
                                                                        training.
                                                                      • 1 of 41 non-payroll
                                                                        user access forms was
                                                                        missing the
                                                                        supervisor’s signature.

                                                                      • 5 of 41 non-payroll
                                                                        user access forms were
                                                                        missing the date of the
                                                                        supervisor’s approval.

                                                                      • 10 of 41 non-payroll
                                                                        user access forms were
                                                                        missing the security
                                                                        manager’s signature.

                                                                      • 13 of 41 non-payroll
                                                                        user access forms were
                                               48
No.   Control Objective   Control Activities        Tests Performed       Results of Testing

                                                                          missing the date of the
                                                                          security manager’s
                                                                          approval.

                                                                       • 6 of 41 non-payroll
                                                                         user access forms were
                                                                         the incorrect form.
                                                                         The user obtained
                                                                         access using the DCPS
                                                                         Security Access
                                                                         Questionnaire.

                                                                      Payroll users
                                                                      DFAS was unable to
                                                                      provide 5 of 45 selected
                                                                      Payroll user access forms.
                                                                      We noted the following for
                                                                      the 40 payroll user access
                                                                      forms provided:
                                                                       • 14 of 40 payroll user
                                                                         forms indicated a user
                                                                         type that did not match
                                                                         the user type listed in
                                                                         DCPS.
                                                                       • 5 of 40 payroll user
                                                                         forms were missing
                                                                         the DCPS Security
                                                                         Awareness training
                                                                         completion date.
                                                                       • 1 of 40 payroll user
                                                                         access forms did not
                                                                         include the user’s
                                                                         signature.

                                               49
No.   Control Objective   Control Activities        Tests Performed     Results of Testing



                                                                      • 3 of 40 payroll user
                                                                        access forms were
                                                                        missing the date of the
                                                                        supervisor’s approval.

                                                                      • 5 of 40 payroll user
                                                                        access forms were
                                                                        missing the security
                                                                        manager’s signature.

                                                                      • 10 of 40 payroll user
                                                                        access forms were
                                                                        missing the date of the
                                                                        security manager’s
                                                                        approval.

                                                                      • 2 of 40 forms
                                                                        processed were the
                                                                        incorrect form.
                                                                      • 12 of 40 selected
                                                                        payroll user access
                                                                        forms were processed
                                                                        using the incorrect
                                                                        non-payroll user form.




                                               50
No.   Control Objective             Control Activities                         Tests Performed                   Results of Testing


                          7.4 - Changes to the payroll               Inquired with appropriate personnel      No relevant exceptions
                          withholding tables and master files are    and inspected documentation              noted.
                          compared to authorized source              regarding the process of tax changes
                          documents by supervisory personnel         to the payroll withholding tables and
                          to ensure that they were input             master files being compared to
                          accurately.                                authorized source documents by
                                                                     supervisory personnel to confirm that
                                                                     they were reviewed and approved.

                                                                     Inquired with appropriate personnel
                                                                     and inspected the Imaging process to
                                                                     confirm that inputs are compared to
                                                                     authorized Imaging source documents
                                                                     and input accurately.
                                                                     [Indianapolis payroll office]


                          7.5 - The system provides an audit         Inquired with appropriate personnel      No relevant exceptions
                          trail of all transactions processed,       and inspected audit trails of            noted.
                          transaction errors, error descriptions,    transactions to confirm that erroneous
                          and error correction procedures.           transactions are reviewed by
                          Audit trails are reviewed by               supervisory personnel, and captured,
                          supervisory personnel and erroneous        reported, investigated, and corrected.
                          data are captured, reported,
                                                                     [Pensacola TSO]
                          investigated, and corrected.
                          7.6 - Policies and procedures are          Inquired with appropriate personnel      No relevant exceptions
                          documented to describe that                and inspected policies and procedures    noted.
                          transactions from interfacing systems      to confirm that transactions from
                          are subjected to the payroll system        interfacing systems are subjected to
                          edits, validations, and error-correction   the payroll system edits, validations,
                          procedures.                                and error-correction procedures.
                                                                     [Pensacola TSO]


                                                           51
No.   Control Objective            Control Activities                        Tests Performed                    Results of Testing


                          7.7 - Policies and procedures are       Inquired with appropriate personnel       No relevant exceptions
                          documented to describe that changes     and inspected policies and procedures     noted.
                          made to the payroll master files and    to confirm that changes to the payroll
                          withholding tables are authorized,      master files and withholding tables are
                          input, and processed timely.            authorized, input, and processed
                                                                  timely.

                                                                  [Cleveland payroll office]


                          7.8 - Policies and procedures are       Inquired with appropriate personnel       No relevant exceptions
                          documented to describe that changes     and inspected policies and procedures     noted.
                          made to the payroll master files and    to confirm that changes to the payroll
                          withholding tables are authorized,      master files and withholding tables are
                          input, and processed timely.            authorized, input, and processed
                                                                  timely.

                                                                  [Indianapolis payroll office]

                          7.9 - Changes to the payroll master     Inquired with appropriate personnel       DFAS Indianapolis:
                          file and withholding table data are     and inspected management summary
                                                                                                            Management Summary
                          logged in numerous reports and          reports to confirm that changes to the
                                                                                                            Reports
                          reviewed by supervisory personnel to    payroll master file and table data are
                          ensure that all requested changes are   logged and reviewed by supervisory
                                                                                                            The management summary
                          processed timely.                       personnel.
                                                                                                            reports for the audit period
                                                                                                            were not available;
                                                                  [All payroll offices]
                                                                                                            therefore, no tests were
                                                                                                            performed.

                                                                                                            DFAS was unable to
                                                                                                            provide the Separation
                                                                                                            Actions without
                                                                                                            Separations Codes Desk
                                                                                                            Guide.

                                                         52
No.   Control Objective   Control Activities        Tests Performed       Results of Testing



                                                                      The Less than $1 Over
                                                                      $5,000 Desk Guide did not
                                                                      have an increased
                                                                      threshold amount of
                                                                      $10,000 in the review
                                                                      procedures.
                                                                      DFAS Cleveland:
                                                                      Management Summary
                                                                      Reports

                                                                      The management summary
                                                                      reports for the audit period
                                                                      were not available;
                                                                      therefore, no tests were
                                                                      performed.

                                                                      DFAS was unable to
                                                                      provide the following
                                                                      Desk Guides for the
                                                                      following critical reports:

                                                                      •   Separation Action
                                                                          without Separation
                                                                          Codes Desk Guide,
                                                                      •   Dual SSN/Mongoose
                                                                          Desk Guide, and
                                                                      •   P6702R01 - Invalid
                                                                          SSN/Deceased
                                                                          Employees/Negative
                                                                          Year-To-Date Desk
                                                                          Guide.


                                               53
No.   Control Objective            Control Activities                         Tests Performed                   Results of Testing


                          7.10 - Requests to change the payroll    Inquired with appropriate personnel      DFAS Indianapolis:
                          master file data and withholding table   and inspected a random sample of
                                                                                                            4 of 45 Remedy Tickets
                          are submitted on pre-numbered            Remedy Tickets to confirm that the:
                                                                                                            were not resolved within
                          Remedy Tickets; the numerical
                          sequence of the Remedy Tickets is            •    requests were pre-numbered;     the required DFAS
                                                                                                            Indianapolis processing
                          accounted for to ensure that the             •    sequence was accounted for      schedule.
                          requested changes are processed                   so that the forms were
                          timely; access to source documents is             accounted for timely;           DFAS Cleveland:
                          controlled; and key source documents
                          require signatures from supervisory          •    tickets were processed in a     No relevant exceptions
                                                                            timely manner; and              noted.
                          personnel.
                                                                       •    access to the source
                                                                            documents was controlled.

                                                                   [All payroll offices]

                          7.11 - Payroll master file data and      Inquired with appropriate personnel      DFAS Indianapolis:
                          withholding table data are edited and    and inspected a sample of Personnel
                          validated and errors identified on the   Interface Invalid Reports of erroneous   DFAS was unable to
                          Personnel Interface Invalid Report are   transactions to confirm that items are   provide 12 of 45 PIIRs
                          corrected promptly.                      investigated and resolved.               requested.

                                                                                                            We noted the following for
                                                                   [All payroll offices]
                                                                                                            the remaining 33 PIIRs:

                                                                                                             • 3 of 33 PIIRs did not
                                                                                                               include annotations
                                                                                                               using the proper
                                                                                                               standard codes.

                                                                                                             • 2 of 33 PIIRs did not
                                                                                                               include the dates the
                                                                                                               payroll technician
                                                                                                               addressed the errors.

                                                         54
No.   Control Objective   Control Activities        Tests Performed       Results of Testing



                                                                      DFAS Cleveland:

                                                                      DFAS was unable to
                                                                      provide 16 of 45 PIIRs
                                                                      requested.

                                                                      We noted the following for
                                                                      the remaining 29 PIIR;

                                                                       • 1 of 29 available PIIRs
                                                                         was missing the
                                                                         payroll technician’s
                                                                         signature.

                                                                       • 1 of 29 PIIRs did not
                                                                         include the date the
                                                                         payroll technician
                                                                         annotated the report.




                                               55
No.   Control Objective            Control Activities                         Tests Performed                  Results of Testing


                          7.12 - Policies and procedures are       Inquired with appropriate personnel     DFAS Indianapolis:
                          documented to describe that payroll      and inspected policies and procedures
                                                                                                           592 Reconciliations
                          processing is accurate and recorded in   to confirm that payroll processing is
                          the proper period.                       accurate and recorded in the            DFAS personnel use the
                                                                   appropriate period.                     592 Balancing Desk
                                                                                                           Guide; however, a policy
                                                                   [All payroll offices]                   regarding document
                                                                                                           retention was not in place.
                                                                                                           Specifically, there was no
                                                                                                           requirement to retain the
                                                                                                           printed and reviewed
                                                                                                           report checklist or the
                                                                                                           signed Report of
                                                                                                           Withholdings.

                                                                                                           Management Summary
                                                                                                           Reports

                                                                                                           The management summary
                                                                                                           reports for the audit period
                                                                                                           were not available;
                                                                                                           therefore, no tests were
                                                                                                           performed.

                                                                                                           DFAS was unable to
                                                                                                           provide the Separation
                                                                                                           Actions without
                                                                                                           Separations Codes Desk
                                                                                                           Guide.

                                                                                                           The Less than $1 Over
                                                                                                           $5,000 Desk Guide did not
                                                                                                           have an increased
                                                                                                           threshold amount of
                                                                                                           $10,000 in the review

                                                         56
No.   Control Objective   Control Activities        Tests Performed       Results of Testing

                                                                      procedures.
                                                                      DFAS Cleveland:
                                                                      592 Reconciliations
                                                                      DFAS personnel use the
                                                                      592 Balancing Desk
                                                                      Guide; however, a policy
                                                                      regarding document
                                                                      retention was not in place.
                                                                      Specifically, there was no
                                                                      requirement to retain the
                                                                      printed and reviewed
                                                                      report checklist or the
                                                                      signed Report of
                                                                      Withholdings.




                                               57
No.   Control Objective   Control Activities        Tests Performed       Results of Testing



                                                                      Management Summary
                                                                      Reports

                                                                      The management summary
                                                                      reports for the audit period
                                                                      were not available;
                                                                      therefore, no tests were
                                                                      performed.

                                                                      DFAS was unable to
                                                                      provide the Desk Guides
                                                                      for the following critical
                                                                      reports:

                                                                      •   Separation Action
                                                                          without Separation
                                                                          Codes Desk Guide,
                                                                      •   Dual SSN/Mongoose
                                                                          Desk Guide, and
                                                                      •
                                                                      •   P6702R01 - Invalid
                                                                          SSN/Deceased
                                                                          Employees/Negative
                                                                          Year-To-Date Desk
                                                                          Guide.




                                               58
No.   Control Objective            Control Activities                      Tests Performed                    Results of Testing

                                                                Inquired with appropriate personnel
                          7.13 - Compliance with the payroll                                              DFAS Indianapolis:
                                                                and inspected pay processing
                          disbursement processing schedule is
                                                                schedules and the payroll                 592 Reconciliations
                          monitored by management.
                                                                disbursement process to confirm the
                                                                                                          DFAS personnel used the
                                                                monitoring of payroll disbursement
                                                                processing schedule by management.        592 Balancing Desk
                                                                                                          Guide; however, a policy
                                                                                                          regarding document
                                                                Inspected a random sample of 592
                                                                reconciliations to confirm that payroll   retention was not in place.
                                                                disbursement is approved and              Specifically, there was no
                                                                monitored by management.                  requirement to retain the
                                                                                                          printed and reviewed
                                                                                                          report checklist or the
                                                                [All payroll offices]
                                                                                                          signed Report of
                                                                                                          Withholdings.
                                                                                                          DFAS was unable to
                                                                                                          provide 8 of 45
                                                                                                          reconciliations that
                                                                                                          provided evidence of
                                                                                                          reconciliation, final
                                                                                                          review, and disbursement
                                                                                                          of payroll.

                                                                                                          Management Summary
                                                                                                          Reports

                                                                                                          The management summary
                                                                                                          reports for the audit period
                                                                                                          were not available;
                                                                                                          therefore, no tests were
                                                                                                          performed.

                                                                                                          DFAS was unable to
                                                                                                          provide the Separation
                                                                                                          Actions without

                                                        59
No.   Control Objective   Control Activities        Tests Performed       Results of Testing



                                                                      Separations Codes Desk
                                                                      Guide.

                                                                      The Less than $1 Over
                                                                      $5,000 Desk Guide did not
                                                                      have an increased
                                                                      threshold amount of
                                                                      $10,000 in the review
                                                                      procedures.
                                                                      DFAS Cleveland:
                                                                      592 Reconciliations
                                                                      DFAS personnel use the
                                                                      592 Balancing Desk
                                                                      Guide; however, a policy
                                                                      regarding document
                                                                      retention was not in place.
                                                                      Specifically, there was no
                                                                      requirement to retain the
                                                                      printed and reviewed
                                                                      report checklist or the
                                                                      signed Report of
                                                                      Withholdings.

                                                                      10 of 45 selected
                                                                      reconciliations were
                                                                      missing documentation of
                                                                      a final disbursement
                                                                      authorization.

                                                                      Management Summary
                                                                      Reports


                                               60
No.   Control Objective   Control Activities        Tests Performed       Results of Testing

                                                                      The management summary
                                                                      reports for the audit period
                                                                      were not available;
                                                                      therefore, no tests were
                                                                      performed.

                                                                      DFAS was unable to
                                                                      provide the Desk Guides
                                                                      for the following critical
                                                                      reports:

                                                                      •   Separation Action
                                                                          without Separation
                                                                          Codes Desk Guide,
                                                                      •   Dual SSN/Mongoose
                                                                          Desk Guide, and
                                                                      •   P6702R01 - Invalid
                                                                          SSN/Deceased
                                                                          Employees/Negative
                                                                          Year-To-Date Desk
                                                                          Guide.




                                               61
No.   Control Objective             Control Activities                         Tests Performed                    Results of Testing


                          7.14 - The detailed 592 payroll           Inquired with appropriate personnel       DFAS Indianapolis:
                          reconciliation shows all pertinent data   and inspected a random sample of 592
                                                                                                              DFAS was unable to
                          describing the payroll (including total   Reconciliations for each database to
                                                                                                              provide 8 of 45
                          disbursements, Retirement, TSP,           confirm:
                                                                                                              reconciliations requested.
                          Bonds, and other withholdings) and
                          the related balances are reconciled, in   •   the detailed payroll reconciliation
                                                                                                              Of the remaining 32 592
                          the appropriate accounting period, to         shows pertinent data describing
                                                                                                              reconciliations:
                          corresponding general ledger accounts         the payroll (including total
                          within DCPS. All reconciling items            disbursements, Retirement, TSP,       •   1 592 reconciliation
                          are investigated and cleared on a             Bonds, and other withholdings)            did not balance, and a
                          timely basis by supervisory personnel,        and the related balances are              supplemental was not
                          prior to disbursement.                        reconciled in the appropriate             prepared; and
                                                                        accounting period to
                                                                        corresponding general ledger          •   1 592 reconciliation
                                                                        accounts within DCPS;                     did not contain a
                                                                                                                  signed report of
                                                                    •   each 592 Reconciliation is                withholdings.
                                                                        approved by management prior to
                                                                                                              DFAS Cleveland:
                                                                        disbursement; and
                                                                                                              10 out of 45
                                                                    •   reconciling items are investigated
                                                                                                              reconciliations did not
                                                                        and cleared on a timely basis by
                                                                                                              contain a final
                                                                        supervisory personnel prior to
                                                                                                              disbursement
                                                                        disbursement.
                                                                                                              authorization.

                                                                    [All payroll offices]


                          7.15 - Summary payroll reports            Inquired with appropriate supervisor      DFAS Indianapolis:
                          including OLQs of total                   and management personnel, obtained
                                                                                                              592 Reconciliations
                          disbursements, Retirement, TSP,           and inspected management summary
                          Bonds, and other withholdings are         payroll reports or OLQs to confirm        DFAS personnel used the
                          periodically reviewed by supervisory      the following:                            592 Balancing Desk Guide
                          personnel for accuracy and ongoing                                                  however, a policy
                          pertinence of the payroll master file         •    Payroll master files and
                                                                                                              regarding document
                          and withholding tables, and approved               withholding tables are
                                                                                                              retention was not in place.
                                                                             periodically reviewed by
                                                          62
No.   Control Objective            Control Activities                       Tests Performed               Results of Testing

                          by management prior to disbursement.            supervisory personnel for   Specifically, there was no
                                                                          accuracy and ongoing        requirement to retain the
                                                                          pertinence; and             printed and reviewed
                                                                                                      report checklist or the
                                                                     •    Reports are approved by     signed Report of
                                                                          management prior to         Withholdings.
                                                                          disbursement.
                                                                                                      Management Summary
                                                                                                      Reports
                                                                 [All payroll offices]
                                                                                                      The management summary
                                                                                                      reports for the audit period
                                                                                                      were not available;
                                                                                                      therefore, no tests were
                                                                                                      performed.

                                                                                                      DFAS was unable to
                                                                                                      provide the Separation
                                                                                                      Actions without
                                                                                                      Separations Codes Desk
                                                                                                      Guide.

                                                                                                      The Less than $1 Over
                                                                                                      $5,000 Desk Guide did not
                                                                                                      have an increased
                                                                                                      threshold amount of
                                                                                                      $10,000 in the review
                                                                                                      procedures.
                                                                                                      DFAS Cleveland:
                                                                                                      592 Reconciliations
                                                                                                      DFAS personnel used the
                                                                                                      592 Balancing Desk
                                                                                                      Guide; however, a policy
                                                                                                      regarding document

                                                        63
No.   Control Objective   Control Activities        Tests Performed       Results of Testing

                                                                      retention was not in place.
                                                                      Specifically, there was no
                                                                      requirement to retain the
                                                                      printed and reviewed
                                                                      report checklist or the
                                                                      signed Report of
                                                                      Withholdings.

                                                                      Management Summary
                                                                      Reports

                                                                      The management summary
                                                                      reports for the audit period
                                                                      were not available;
                                                                      therefore, no tests were
                                                                      performed.

                                                                      DFAS was unable to
                                                                      provide the Desk Guides
                                                                      for the following critical
                                                                      reports:

                                                                      •   Separation Action
                                                                          without Separation
                                                                          Codes Desk Guide,
                                                                      •   Dual SSN/Mongoose
                                                                          Desk Guide, and
                                                                      •   P6702R01 - Invalid
                                                                          SSN/Deceased
                                                                          Employees/Negative
                                                                          Year-To-Date Desk
                                                                          Guide.




                                               64
No.   Control Objective            Control Activities                        Tests Performed                  Results of Testing


                          7.16 - Policies and procedures are      Inquired with appropriate personnel     DFAS Indianapolis:
                          documented to describe that disbursed   and inspected policies and procedures
                                                                                                          592 Reconciliations
                          payroll (including compensation and     to confirm controls are in place to
                          withholding) is accurately calculated   monitor that disbursed payroll is       DFAS personnel used the
                          and recorded.                           accurately calculated and recorded.     592 Balancing Desk
                                                                                                          Guide; however, a policy
                                                                                                          regarding document
                                                                  [All payroll offices]                   retention was not in place.
                                                                                                          Specifically, there was no
                                                                                                          requirement to retain the
                                                                                                          printed and reviewed
                                                                                                          report checklist or the
                                                                                                          signed Report of
                                                                                                          Withholdings.

                                                                                                          Management Summary
                                                                                                          Reports

                                                                                                          The management summary
                                                                                                          reports for the audit period
                                                                                                          were not available;
                                                                                                          therefore, no tests were
                                                                                                          performed.

                                                                                                          DFAS was unable to
                                                                                                          provide the Separation
                                                                                                          Actions without
                                                                                                          Separations Codes Desk
                                                                                                          Guide.

                                                                                                          The Less than $1 Over
                                                                                                          $5,000 Desk Guide did not
                                                                                                          include an increased
                                                                                                          threshold amount of
                                                                                                          $10,000 within its review

                                                        65
No.   Control Objective   Control Activities        Tests Performed       Results of Testing

                                                                      procedures.
                                                                      DFAS Cleveland:
                                                                      592 Reconciliations
                                                                      DFAS personnel used the
                                                                      592 Balancing Desk
                                                                      Guide; however, a policy
                                                                      regarding document
                                                                      retention was not in place.
                                                                      Specifically, there was no
                                                                      requirement to retain the
                                                                      printed and reviewed
                                                                      report checklist or the
                                                                      signed Report of
                                                                      Withholdings.

                                                                      Management Summary
                                                                      Reports

                                                                      The management summary
                                                                      reports for the audit period
                                                                      were not available;
                                                                      therefore, no tests were
                                                                      performed.

                                                                      DFAS was unable to
                                                                      provide the Desk Guides
                                                                      for the following critical
                                                                      reports:

                                                                      •   Separation Action
                                                                          without Separation
                                                                          Codes Desk Guide,
                                                                      •   Dual SSN/Mongoose
                                                                          Desk Guide, and
                                               66
No.   Control Objective            Control Activities                    Tests Performed                 Results of Testing


                                                                                                     •   P6702R01 - Invalid
                                                                                                         SSN/Deceased
                                                                                                         Employees/Negative
                                                                                                         Year-To-Date Desk
                                                                                                         Guide.
                          7.17 - DCPS performs limit and      Inquired with appropriate personnel    DFAS Indianapolis:
                          reasonableness checks on employee   and inspected a limit and
                                                                                                     Management Summary
                          earnings.                           reasonableness management summary
                                                                                                     Reports
                                                              report to confirm the required limit
                                                              and reasonableness checks are
                                                                                                     The management summary
                                                              performed on employee earnings.
                                                                                                     reports for the audit period
                                                                                                     were not available;
                                                              [All payroll offices]                  therefore, no tests were
                                                                                                     performed.

                                                                                                     DFAS was unable to
                                                                                                     provide the Separation
                                                                                                     Actions without
                                                                                                     Separations Codes Desk
                                                                                                     Guide.

                                                                                                     The Less than $1 Over
                                                                                                     $5,000 Desk Guide did not
                                                                                                     have an increased
                                                                                                     threshold amount of
                                                                                                     $10,000 in the review
                                                                                                     procedures.

                                                                                                     DFAS Cleveland:
                                                                                                     Management Summary
                                                                                                     Reports

                                                                                                     The management summary

                                                        67
No.   Control Objective   Control Activities        Tests Performed       Results of Testing

                                                                      reports for the audit period
                                                                      were not available;
                                                                      therefore, no tests were
                                                                      performed.


                                                                      DFAS was unable to
                                                                      provide the Desk Guides
                                                                      for the following critical
                                                                      reports:

                                                                      •   Separation Action
                                                                          without Separation
                                                                          Codes Desk Guide,
                                                                      •   Dual SSN/Mongoose
                                                                          Desk Guide, and
                                                                      •   P6702R01 - Invalid
                                                                          SSN/Deceased
                                                                          Employees/Negative
                                                                          Year-To-Date Desk
                                                                          Guide.




                                               68
No.   Control Objective            Control Activities                        Tests Performed                    Results of Testing


                          7.18 - Policies and procedures are      Inquired with appropriate personnel       No relevant exceptions
                          documented to describe that only        and inspected policies and procedures     noted.
                          valid, authorized employees are paid    to confirm that only valid, authorized
                          and that payroll is disbursed to        employees are paid and that payroll is
                          appropriate employees.                  disbursed to appropriate employees.

                                                                  [All payroll offices]


                          7.19 - Supervisory personnel            Inquired with appropriate personnel       DFAS Indianapolis:
                          periodically review listings, such as   and inspected the Personnel/Payroll
                                                                                                            No policy was in place that
                          the Personnel/Payroll Reconciliation    Reconciliation Report to confirm it
                                                                                                            required review
                          Report, of current employees within     was sent to management for review of
                                                                                                            annotations and document
                          each user organization and notify the   employee listings and notification.
                                                                                                            retention for the
                          corresponding user organization’s
                                                                  Obtained and inspected a sample of        personnel/payroll reports.
                          personnel department of necessary
                                                                  Personnel/Payroll Reconciliation
                          changes.                                                                          DFAS was unable to
                                                                  Reports, along with the corresponding
                                                                                                            provide 4 of 45
                                                                  supervisor document log, to confirm
                                                                                                            Personnel/Payroll
                                                                  that personnel or payroll items that
                                                                                                            Reconciliation Report
                                                                  require resolution are investigated and
                                                                                                            reviews requested.
                                                                  resolved by the appropriate Civilian
                                                                  Pay personnel.                            We noted 8 of 41 reports
                                                                                                            did not include notification
                                                                                                            sent to the user agency
                                                                  [All payroll offices]
                                                                                                            with the necessary
                                                                                                            changes.
                                                                                                            DFAS Cleveland:
                                                                                                            No Personnel/Payroll
                                                                                                            Reconciliations were
                                                                                                            prepared during the testing
                                                                                                            period.
                                                                                                            No policy was in place that
                                                                                                            required review
                                                         69
No.   Control Objective             Control Activities                        Tests Performed                   Results of Testing

                                                                                                            annotations and document
                                                                                                            retention for the
                                                                                                            Personnel/Payroll Reports.


                          7.20 - Only authorized personnel have    Inquired with the appropriate            DFAS Saufley Field:
                          the ability to disburse payroll.         personnel and inspected the policies
                                                                                                            1 of 66 SAARs tested
                                                                   and procedures regarding the
                                                                                                            included a justification for
                                                                   disbursement of payroll, and inspected
                                                                                                            access that did not include
                                                                   a sample of DCPS user profiles to
                                                                                                            the responsibility to
                                                                   confirm that only authorized
                                                                                                            disburse payroll.
                                                                   personnel have the ability to disburse
                                                                   payroll.


                                                                   [DFAS Saufley Field]


                          7.21 - Policies and procedures are       Inquired with appropriate personnel      DFAS Indianapolis:
                          documented to describe that controls     and inspected policies and procedures
                                                                                                            592 Reconciliations
                          provide reasonable assurance of the      to confirm that the 592
                          integrity and reliability of DCPS data   Reconciliations are used by payroll      DFAS personnel used the
                          for financial reporting purposes.        office personnel to provide assurance    592 Balancing Desk
                                                                   of the integrity and reliability of      Guide; however, a policy
                                                                   DCPS data for financial reporting        regarding document
                                                                   purposes.                                retention was not in place.
                                                                                                            Specifically, there was no
                                                                                                            requirement to retain the
                                                                   [All payroll offices]                    printed and reviewed
                                                                                                            report checklist, or the
                                                                                                            signed Report of
                                                                                                            Withholdings.




                                                          70
No.   Control Objective             Control Activities                        Tests Performed                    Results of Testing


                                                                                                             DFAS Cleveland:
                                                                                                             592 Reconciliations
                                                                                                             DFAS personnel used the
                                                                                                             592 Balancing Desk
                                                                                                             Guide; however, a policy
                                                                                                             regarding document
                                                                                                             retention was not in place.
                                                                                                             Specifically, there was no
                                                                                                             requirement to retain the
                                                                                                             printed and reviewed
                                                                                                             report checklist or the
                                                                                                             signed Report of
                                                                                                             Withholdings.
                          7.22 - Payroll transactions at the end   Inquired with appropriate personnel       DFAS Indianapolis:
                          of a payroll cycle are reconciled by     and inspected a random sample of 592
                                                                                                             DFAS was unable to
                          supervisory personnel to ensure          Reconciliations at the end of a payroll
                                                                                                             provide 8 of 45 samples
                          complete and consistent recording in     cycle to confirm they were reconciled
                                                                                                             documenting final
                          the appropriate accounting period.       in order to confirm complete and
                                                                                                             disbursement
                                                                   consistent recording in the appropriate
                                                                                                             authorization.
                                                                   accounting period.
                                                                                                             DFAS Cleveland:
                                                                   [All payroll offices]
                                                                                                             10 of 45 reconciliations
                                                                                                             were missing
                                                                                                             documentation of a final
                                                                                                             disbursement
                                                                                                             authorization.
                                                                   Inquired with appropriate personnel
                          7.23 - Error reports, such as the                                                  DFAS Indianapolis:
                                                                   and inspected a sample of Personnel
                          Personnel Interface Invalid Report,
                                                                   Interface Invalid Reports to confirm
                          and error warnings show rejected                                                   DFAS was unable to
                                                                   the following:
                          transactions with error messages that                                              provide 12 of 45 PIIRs.
                          have clear, understandable corrective
                                                                       •    The reports show rejected
                          actions for each type of error.
                                                                            transactions with error
                                                          71
No.   Control Objective             Control Activities                         Tests Performed                       Results of Testing

                                                                             messages that have clear,         For the remaining 33
                          Rejected data are automatically
                                                                             understandable corrective         PIIRs:
                          written to the Personnel Interface
                                                                             actions for each type of error.
                          Invalid Report and held until corrected
                          by payroll technicians. Each                  •    The rejected data are                 • 3 PIIRs did not include
                          erroneous transaction is annotated                 automatically written on an             annotations using the
                          with codes indicating the type of data             automated error suspense file           proper standard codes.
                          error, date and time the transaction               and held until corrected by
                          was processed and the error identified,            payroll technicians. Each             • 2 PIIRs did not include
                          and the identity of the user who                   erroneous transaction is                the dates the payroll
                          originated the transaction.                        annotated with codes                    technician addressed
                                                                             indicating the type of data             the errors.
                          Users review the Personnel Interface               error, date and time the
                          Invalid Reports for data accuracy,                 transaction was processed,        DFAS Cleveland:
                          validity, and completeness.                        the error identified, and the
                          A control group is responsible for                 identity of the user who          DFAS was unable to
                          controlling and monitoring rejected                originated the transaction.       provide 16 of 45 PIIRs
                          transactions included on the Personnel        •    Users review output for data      requested.
                          Interface Invalid Report.                          accuracy, validity, and
                                                                             completeness.                     Of the 29 PIIR reports
                                                                                                               provided:
                                                                        •    The report is used for
                                                                             controlling and monitoring
                                                                             rejected transactions.            •     1 PIIR was missing
                                                                                                                     the payroll
                                                                                                                     technician’s signature.
                                                                    [All payroll offices]
                                                                                                               •     1 PIIR did not include
                                                                                                                     the dates the payroll
                                                                                                                     technician addressed
                                                                                                                     the errors.
                          7.24 - Policies and procedures are        Inquired with appropriate personnel        DFAS Indianapolis:
                          documented to describe that               and inspected policies and procedures
                                                                                                               Management Summary
                          capabilities exist for fiscal year-end,   to confirm that capabilities exist for
                                                                                                               Reports
                          leave year-end, and calendar year-end     fiscal year-end, leave year-end, and
                          processing and forfeitures in             calendar year-end processing and
                                                                                                               No policy was in place that
                          accordance with established               forfeitures in accordance with
                                                          72
No.   Control Objective           Control Activities                   Tests Performed                  Results of Testing

                          Government-wide and agency        established Government-wide and         required a complete and
                          guidelines.                       agency guidelines. Obtained and         accurate listing of
                                                            inspected Payroll Quality Review        management summary
                                                            reports to confirm checklists are       reports generated and
                                                            followed, and payroll steps have been   reviewed by Civilian Pay
                                                            performed.                              Processing Personnel.

                                                                                                    DFAS was unable to
                                                            [All payroll offices]
                                                                                                    provide the Separation
                                                                                                    Actions without
                                                                                                    Separations Codes Desk
                                                                                                    Guide.

                                                                                                    The Less than $1 Over
                                                                                                    $5,000 Desk Guide did not
                                                                                                    have an increased
                                                                                                    threshold amount of
                                                                                                    $10,000 in the review
                                                                                                    procedures.
                                                                                                    DFAS Cleveland:
                                                                                                    Management Summary
                                                                                                    Reports

                                                                                                    No policy was in place that
                                                                                                    required a complete and
                                                                                                    accurate listing of
                                                                                                    management summary
                                                                                                    reports generated and
                                                                                                    reviewed by Civilian Pay
                                                                                                    Processing personnel.

                                                                                                    DFAS was unable to
                                                                                                    provide the Desk Guides
                                                                                                    for the following critical
                                                                                                    reports:
                                                       73
No.   Control Objective   Control Activities        Tests Performed       Results of Testing



                                                                      •   Separation Action
                                                                          without Separation
                                                                          Codes Desk Guide,
                                                                      •   Dual SSN/Mongoose
                                                                          Desk Guide, and
                                                                      •   P6702R01 - Invalid
                                                                          SSN/Deceased
                                                                          Employees/Negative
                                                                          Year-To-Date Desk
                                                                          Guide.




                                               74
No.   Control Objective             Control Activities                         Tests Performed                    Results of Testing


                          7.25 - Payroll withholding table data      Inspected a sample of payroll            No relevant exceptions
                          is periodically reviewed by                withholding table data updates to        noted.
                          supervisory personnel for compliance       confirm that they are periodically
                          with statutory requirements.               updated by supervisory personnel for
                                                                     compliance with statutory
                                                                     requirements.

                                                                     [DFAS Saufley Field]



                                                                                                              DFAS Saufley Field:
                          7.26 - The data processing control         Inquired with appropriate personnel
                          group has a schedule by application        and inspected the schedules used by      DFAS was unable to
                          that shows when outputs should be          the data processing group to confirm     provide operator jobs logs
                          completed, when they need to be            that they:                               for 3 of the 18 randomly
                          distributed, who the recipients are, and                                            selected dates.
                          the copies needed. The data                •   had a schedule by application that
                          processing control group reviews               shows when outputs need to be
                          output products for general                    completed, when they need to be
                          acceptability; and reconciles control          distributed, who the recipients
                          information to determine                       are, and the copies needed;
                          completeness of processing.                •   reviewed output products for
                                                                         general acceptability; and
                                                                     •   reconciled control information to
                                                                         determine completeness of
                                                                         processing.

                                                                         [DFAS Saufley Field]


                          7.27 - Policies and procedures are         Inquired with appropriate personnel      DFAS Indianapolis:
                          documented to describe that current-       and inspected policies and procedures
                                                                                                              Management Summary
                          or prior-period adjustments to             to confirm that current- or prior-
                                                                                                              Reports
                          employee’s pay; including employee         period adjustments to each
                          debt, tax deduction, or deductions not     employee’s pay; including employee
                                                          75
No.   Control Objective             Control Activities                      Tests Performed                   Results of Testing

                          taken; are reported, reconciled, and   debt, tax deduction, or deductions not   No policy was in place that
                          approved.                              taken; are reported, reconciled and      required a complete and
                                                                 approved.                                accurate listing of
                                                                                                          management summary
                                                                 [All payroll offices]                    reports generated and
                                                                                                          reviewed by Civilian Pay
                                                                                                          Processing Personnel.

                                                                                                          DFAS was unable to
                                                                                                          provide the Separation
                                                                                                          Actions without
                                                                                                          Separations Codes Desk
                                                                                                          Guide.

                                                                                                          The Less than $1 Over
                                                                                                          $5,000 Desk Guide did not
                                                                                                          have an increased
                                                                                                          threshold amount of
                                                                                                          $10,000 in the review
                                                                                                          procedures.
                                                                                                          DFAS Cleveland:
                                                                                                          Management Summary
                                                                                                          Reports

                                                                                                          No policy was in place that
                                                                                                          required a complete and
                                                                                                          accurate listing of
                                                                                                          management summary
                                                                                                          reports generated and
                                                                                                          reviewed by Civilian Pay
                                                                                                          Processing Personnel.

                                                                                                          DFAS was unable to
                                                                                                          provide the Desk Guides
                                                                                                          for the following critical
                                                          76
No.   Control Objective   Control Activities        Tests Performed       Results of Testing

                                                                      reports:

                                                                      •   Separation Action
                                                                          without Separation
                                                                          Codes Desk Guide,
                                                                      •   Dual SSN/Mongoose
                                                                          Desk Guide, and
                                                                      •   P6702R01 - Invalid
                                                                          SSN/Deceased
                                                                          Employees/Negative
                                                                          Year-To-Date Desk
                                                                          Guide.




                                               77
    No.        Control Objective                  Control Activities                        Tests Performed                    Results of Testing


8         Data From Interfacing Systems


8         Controls provide reasonable   8.1 - Policies and procedures are         Inquired with appropriate personnel       No relevant exceptions
             assurance that data from   documented to describe that data          and inspected policies and procedures     noted.
             interfacing systems are    transmissions between DCPS and user       to confirm that data transmissions
             transferred timely and     organizations are authorized,             between DCPS and user organizations
             accurately.                complete, accurate, and secure.           are authorized, complete, accurate,
                                                                                  and secure.

                                                                                  [DFAS Saufley Field]

                                        8.2 - For interfacing systems, record     Inquired with appropriate personnel       No relevant exceptions
                                        counts are accumulated and compared       and inspected interface files to          noted.
                                        to footer control totals to help          confirm that record counts match
                                        determine the completeness of             control totals in the footer to
                                        interface processing. Out-of-balance      determine completeness of interface
                                        conditions are reported, corrected, and   processing and out-of-balance
                                        reentered.                                conditions are reported, corrected, and
                                                                                  reentered.


                                                                                  [DFAS Saufley Field]


                                        8.3 - Batch transactions without pre-     Inspected a batch transactions report     No relevant exceptions
                                        assigned serial numbers are               to confirm that transactions without      noted.
                                        automatically assigned a unique           pre-assigned serial numbers are
                                        sequence number, which is used by         automatically assigned a unique
                                        the computer to monitor that all          sequence number.
                                        transactions are processed.
                                                                                  [DFAS Saufley Field]



                                                                        78
General Computer Control Objectives, Control Activities, Tests Performed, and Results of Testing


   No.         Control Objectives                 Control Activities                        Tests Performed                  Results of Testing



    1      Security Programs Effectiveness Monitoring

           Controls provide reasonable   1.1.1 DISA DECC-MECH and                DISA DECC-MECH and DFAS Saufley           No relevant exceptions
   1.1
           assurance that the security   DFAS Saufley Field                      Field                                     noted.
           program effectiveness is
                                         DoD and DFAS policy both direct         Inquired with the security officer to
           monitored and changes are
                                         that an annual Information Assurance    obtain an understanding of how
           made as needed.
                                         (IA) review be performed.               management assessed the appropriateness
                                                                                 of the security policies and compliance
                                                                                 with them.


           Management monitors           1.2.1 DISA DECC-MECH                    DISA DECC-MECH                            No relevant exceptions
   1.2
           compliance with policies                                                                                        noted.
                                         The Director’s Policy Letters and       Inspected the DCPS Security
           and procedures.
                                         SOP are reviewed and updated.           Requirements and Information Systems
                                         Security Readiness Reviews (SRRs)       Security Policy Certification Test and
                                         are conducted at least every 3 years.   Evaluation Plan and Procedures to
                                                                                 confirm that an annual IA review was
                                                                                 conducted and that a comprehensive
                                                                                 vulnerability management process was in
                                                                                 place.




                                                                          79
No.       Control Objectives              Control Activities                         Tests Performed                   Results of Testing



      Corrective actions are     1.3.1 DISA DECC-MECH                    DISA DECC-MECH                              DISA DECC-MECH
1.3
      effectively implemented.                                                                                       and DFAS Saufley
                                 The Vulnerability Management            Inspected the SRR process to confirm that
                                                                                                                     Field:
                                 System (VMS) 6.0 is used to track       corrective actions are effectively
                                 the status of outstanding Information   implemented for identified SRR findings.    The prior year finding
                                 Assurance Vulnerability Alerts                                                      regarding payroll data
                                                                         Selected a sample of SRRs and inspected
                                 (IAVAs) and the status of STIG                                                      transmitted through the
                                                                         the VMS reports to confirm that findings
                                 findings from the SRR process.                                                      NIPRNET unencrypted
                                                                         identified by the SRR process have been
                                 DISA DECC-MECH management is                                                        has not been resolved.
                                                                         addressed.
                                 responsible for tracking and closing
                                 all IAVAs and STIG findings that        Requested prior audit reports or reviews
                                 resulted from the SRR process.          and confirmed that remediation had
                                                                         occurred for the findings and
                                                                         recommendations.
                                 1.3.2 DFAS Saufley Field
                                 Remediation plans detail corrective
                                 actions in response to findings         DFAS Saufley Field
                                 identified in audits of DCPS or
                                 DFAS. Management has approved           Requested prior audit reports and
                                                                         confirmed that remediation has occurred
                                 the remediation plan and monitors
                                 progress of the plan.                   for the findings and recommendations.
                                                                         Requested remediation plans intended to
                                                                         address previous findings to confirm that
                                                                         remediation had been initiated.




                                                                  80
No.      Control Objectives             Control Activities                   Tests Performed                    Results of Testing



2     Risk Assessment

      Risk assessments are      2.1.1 DISA DECC-MECH and          DISA DECC-MECH                              No relevant exceptions
2.1
      performed according to    DFAS Saufley Field                                                            noted.
                                                                  Inquired with the Information System
      current Federal and DoD
                                DoD and DFAS policy both direct   Security Officer (ISSO) and related
      requirements.
                                that an annual IA review be       security personnel and inquired how often
                                conducted.                        the risk assessment process occurs.
                                                                  Inspected the SRR process and confirmed
                                                                  how often it occurs and verified that
                                                                  deficiencies and corrective actions are
                                                                  tracked.
                                                                  Selected a sample of SRRs performed and
                                                                  inspected the VMS reports to confirm that
                                                                  findings identified by the SRR process
                                                                  have been addressed.
                                                                  DFAS Saufley Field
                                                                  Inquired with the ISSO and related
                                                                  security personnel and inquired how often
                                                                  the risk assessment process occurs.
                                                                  Inspected the last Risk Assessment,
                                                                  which should be included with the SSAA
                                                                  to confirm that risks are periodically
                                                                  assessed.




                                                             81
No.      Control Objectives               Control Activities                      Tests Performed                    Results of Testing



3     Site Security Plans

      Site security plans are     3.1.1 DFAS Saufley Field            DFAS Saufley Field                           No relevant exceptions
3.1
      documented, approved, and                                                                                    noted.
                                  DoD and DFAS policy both direct     Inspected the DCPS SSAA to confirm
      are current.
                                  that an annual IA review be         that it has been documented, kept current,
                                  conducted. Review appropriate       and appropriately approved by
                                  generated documentation to ensure   management.
                                  that these processes are
                                                                      Inspected DCPS Systems Security Policy,
                                  accomplished.
                                                                      Security Requirements, and Certification
                                                                      Test and Evaluation Plan and Procedures
                                                                      to confirm that each has been updated.

4     Security Management Structure

      A security management       4.1.1 DFAS Saufley Field            DFAS Saufley Field                           No relevant exceptions
4.1
      structure has been                                                                                           noted.
                                  The DCPS SSAA describes the IA      Confirmed through inquiry that a
      established with DCPS.
                                  operations of the DoD information   management structure had been
                                  system and clearly delineates IA    established.
                                  responsibilities and expected
                                                                      Obtained and inspected the security
                                  behavior of all personnel.
                                                                      management organization chart.
                                                                      Requested one position description for
                                                                      each function listed on the organization
                                                                      chart to confirm that positions were
                                                                      established in writing.
                                                                      Inspected the SSAA for the security
                                                                      management structure. Confirmed that
                                                                      each position function is outlined in the
                                                                      SSAA.



                                                                 82
No.       Control Objectives                 Control Activities                        Tests Performed                    Results of Testing



      Information security           4.2.1 DISA DECC-MECH and              DISA DECC-MECH                               No relevant exceptions
4.2
      responsibilities are clearly   DFAS Saufley Field                                                                 noted.
                                                                           Inspected signed rules of behavior
      assigned.
                                     The DISA DECC-MECH SSAA and           statements for the DISA personnel with
                                     the DCPS SSAA both describe the       access to DCPS and the underlying
                                     IA operations of the DoD              operating system.
                                     information system and clearly
                                     delineate IA responsibilities and
                                     expected behavior of all personnel.




                                                                           DFAS Saufley Field
                                                                           Inspected the SSAA for security
                                                                           management responsibilities. Confirmed
                                                                           that each position outlined in the SSAA is
                                                                           filled by personnel and those personnel
                                                                           understand their duties.
                                                                           Inspected signed rules of behavior
                                                                           statements for DFAS personnel with
                                                                           access to DCPS.




                                                                    83
No.       Control Objectives                   Control Activities                           Tests Performed                    Results of Testing


                                      4.3.2 DFAS Saufley Field
      Employees are aware of                                                    DFAS Saufley Field                           The Information
4.3
      security policies.                                                                                                     Assurance Manager and
                                      Ongoing security awareness                Inspected the Security Awareness
                                                                                                                             Information Assurance
                                      programs are in place that include        Training materials.
                                                                                                                             Officer (IAM/IAO) did
                                      initial training and periodic refresher
                                                                                Obtained a list of employees who have        not receive IAM/IAO
                                      training.
                                                                                access to DCPS. Selected a sample of         certifications.
                                                                                employees who have DCPS access and
                                                                                inspected their training files to confirm
                                                                                the completion of the necessary security
                                                                                training (and the required certifications)
                                                                                and that they are signed.
                                                                                Obtained evidence that management has
                                                                                active security awareness programs in
                                                                                place (for example, electronic mail files,
                                                                                or other policy distribution mechanisms)
                                                                                that proactively emphasize the security
                                                                                policies to data owners and users.


      A comprehensive                 4.4.1 DISA DECC-MECH                      DISA DECC-MECH                               No relevant exceptions
4.4
      vulnerability management                                                                                               noted.
                                      Vulnerabilities are tracked in the        Obtained the VMS reports for the audit
      process that includes the
                                      VMS database. Prior to connection         period for DCPS and confirmed
      systematic identification and
                                      to the network, the system                vulnerabilities are being tracked and
      mitigation of software and
                                      administrator must generate a VC06        resolved in a timely manner.
      hardware vulnerabilities is
                                      report detailing Information
      in place.
                                      Assurance Vulnerability
                                      Management (IAVM) notices for the
                                      asset’s operating system. All IAVM
                                      notices must be mitigated, and
                                      applicable patches must be loaded
                                      prior to connecting the asset to the
                                      network. Once all checklists have
                                      been applied from the STIG and the
                                      patches from the vulnerability alerts

                                                                         84
No.   Control Objectives            Control Activities              Tests Performed   Results of Testing


                           have been installed, a self-assessment
                           and a Retina network scan is
                           conducted. Security assessments that
                           require a scan use the Retina scanner
                           and the FSO Full Scan Policy. The
                           scan is conducted using a direct
                           connection from the system running
                           the scanner to the system being
                           assessed or the site is authorized to
                           connect the asset to an isolated
                           network during the Retina scan.
                           Each site then places their self-
                           assessment in the VMS database. If
                           the systems have a database, web
                           server, or any other software that has
                           a STIG, they must put those self-
                           assessments in VMS as well. The
                           network scan must be generated with
                           all database instances and all web
                           servers running.




                                                            85
No.       Control Objectives                   Control Activities                           Tests Performed                      Results of Testing



5     Personnel Policies

      Employee (Government or         DFAS Saufley Field                        DFAS Saufley Field                              No relevant exceptions
5.1
      contractor) background                                                                                                   noted.
                                      The DCPS SSAA requires system             Requested, obtained, and inspected the
      investigations, hiring,
                                      users to be subjected to various levels   policies and procedures for gaining access
      transferring, and termination
                                      of Personnel Security Investigations      to sensitive information.
      policies address security and
                                      based on the level of access or
      are in compliance with DoD                                                Obtained a listing of all personnel
                                      privileges they have within the
      Instruction 8500.2.                                                       associated with DCPS. Selected a sample
                                      systems. The higher the level of
                                                                                of DCPS users and obtained SAAR forms
                                      access, the more stringent the
                                                                                for each. Confirmed that each SAAR
                                      required investigation becomes. As a
                                                                                details the user’s justification for access,
                                      minimum, all DFAS DCPS
                                                                                security clearance level, and the proper
                                      personnel/employees (military,
                                                                                approvals.
                                      civilian, or contractors) will have a
                                      favorably completed the National
                                      Agency Check.


      Job descriptions for            5.2.1 DISA DECC-MECH and                  DISA DECC-MECH                                 No relevant exceptions
5.2
      Government employees            DFAS Saufley Field                                                                       noted.
                                                                                Inspected the job descriptions for the
      have been documented, and
                                      Developed position descriptions for       applicable types of personnel.
      employees understand their
                                      distinct system support positions.
      duties and responsibilities.
                                                                                DFAS Saufley Field
                                                                                Inspected the job descriptions for the
                                                                                applicable types of personnel listed in
                                                                                Control Objective # 5.1.




                                                                        86
No.   Control Objectives            Control Activities                        Tests Performed                      Results of Testing



                           5.2.2 DISA DECC-MECH and               DISA DECC-MECH                                 No relevant exceptions
                           DFAS Saufley Field                                                                    noted.
                                                                  Selected a sample of employees and
                           Position descriptions are available    confirmed through inquiry that they
                           and performance plans are provided     understood their duties and
                           to assist employees in understanding   responsibilities.
                           their roles and responsibilities
                                                                  Inspected documentation to confirm that
                           according to their assigned duties.
                                                                  employees have signed position
                                                                  descriptions.
                                                                  DFAS Saufley Field
                                                                  Selected a sample of employees and
                                                                  confirmed through inquiry that they
                                                                  understood their duties and
                                                                  responsibilities.
                                                                  Inspected documentation to confirm that
                                                                  employees have signed their performance
                                                                  plans.

                           5.2.3 DFAS Saufley Field               DFAS Saufley Field                             No relevant exceptions
                                                                                                                 noted.
                           All DFAS personnel are required to     Inspected the hiring, transfer, termination,
                           complete initial and periodic IA       and performance policies to confirm that
                           training. This training helps the      they are documented and address
                           employee understand the importance     security.
                           of their roles and responsibilities.
                                                                  Confirmed though inquiry that debriefs
                                                                  are conducted when employees are
                                                                  terminated and that a Human Resources
                                                                  Checklist is used to note the collection of
                                                                  DFAS property.
                                                                  Confirmed through inspection that an e-
                                                                  mail is sent to the system administrator to
                                                                  request that system access be removed for
                                                                  a terminated employee.

                                                           87
No.       Control Objectives                Control Activities                        Tests Performed                   Results of Testing



5.3   Employee (Government or      5.3.1 DISA DECC-MECH and               DISA DECC-MECH                              DFAS Saufley Field:
      contractor) are adequately   DFAS Saufley Field
                                                                          Confirmed through inquiry that a training   We noted that the IAM
      trained and possess the
                                   A program is implemented to ensure     program has been established.               and IAO did not receive
      required skills.
                                   that upon arrival (and periodically                                                IAM/IAO certifications.
                                   thereafter), all personnel receive
                                   training and familiarization to        Requested documentation to confirm the
                                   perform their assigned IA duties, to   existence of this training program (for
                                   include familiarization with their     example, individual training plans, job-
                                   prescribed roles in all IA-related     specific training plans, and policy for
                                   plans, such as incident response,      requirements of training).
                                   configuration management, and
                                   Continuity of Operations Plan
                                   (COOP) or disaster recovery.           If training was conducted in-house,
                                                                          inspected the training materials to
                                                                          confirm that they provided personnel with
                                                                          adequate training and expertise.


                                                                          Selected a sample of employees who have
                                                                          access to DCPS and inspected their
                                                                          training records to confirm that specific
                                                                          job function training is occurring.
                                                                          DFAS Saufley Field
                                                                          Confirmed through inquiry that a training
                                                                          program has been established.
                                                                          Requested documentation to confirm the
                                                                          existence of this training program (for
                                                                          example, individual training plans, job-
                                                                          specific training plans, and policy for
                                                                          requirements of training).




                                                                   88
No.   Control Objectives   Control Activities                   Tests Performed                  Results of Testing



                                                     If training was conducted in-house,
                                                     inspected the training materials to
                                                     confirm that they provided personnel with
                                                     adequate training that is up to date.
                                                     Selected a sample of employees who have
                                                     access to DCPS and inspected their
                                                     training records to confirm that job-
                                                     specific training is occurring.




                                                89
No.       Control Objectives                  Control Activities                         Tests Performed                    Results of Testing



6     Information Resource Classification

      Resource classifications and   6.1.1 DISA DECC-MECH                    DISA DECC-MECH                               No relevant exceptions
6.1
      related criteria have been                                                                                          noted.
                                     DFAS management has classified          Inquired with management as to the
      established.
                                     DCPS according to appropriate           process for identifying and prioritizing
                                     MAC-level standards and identified      critical data and operations.
                                     DCPS in the Service-Level
                                                                             Obtained documentation that supports
                                     Agreement (SLA) between DISA and
                                                                             this process and confirmed that it is
                                     DFAS.
                                                                             current and was approved by
                                                                             management.
                                     DFAS Saufley Field
                                     DFAS management has classified          DFAS Saufley Field
                                     DCPS according to appropriate
                                                                             Inquired with management as to the
                                     MAC-level standards and identified
                                                                             process for identifying and prioritizing
                                     DCPS in the SLA between DISA and
                                                                             critical data and operations.
                                     DFAS.
                                                                             Obtained documentation that supports
                                                                             this process and confirmed that it is
                                                                             current and was approved by
                                                                             management.


                                     6.1.2 DISA DECC-MECH                    DISA DECC-MECH                               No relevant exceptions
                                                                                                                          noted.
                                     DFAS management has identified          Corroborated with key personnel that
                                     DCPS resources supporting critical      identification of resources supporting
                                     operations based on the nature and      critical operations is based on the nature
                                     impact of the disaster. The resources   and impact of the disaster.
                                     are included in the DISA DECC-
                                                                             Obtained and inspected the business
                                     MECH Business Continuity Plan as
                                                                             continuity plan and confirmed that
                                     prescribed in the SLA between DISA
                                                                             supporting critical operations are
                                     and DFAS.
                                                                             identified, and emergency priorities are

                                                                     90
No.       Control Objectives                  Control Activities                         Tests Performed                    Results of Testing


                                                                             established and approved by
                                                                             management.
                                     DFAS Saufley Field
                                     DFAS management has identified
                                                                             DFAS Saufley Field
                                     DCPS resources supporting critical
                                     operations based on the nature and      Corroborated with key personnel that
                                     impact of the disaster. The resources   identification of resources supporting
                                     are included in the DISA DECC-          critical operations is based on the nature
                                     MECH Business Continuity Plan as        and impact of the disaster.
                                     prescribed in the SLA between DISA
                                                                             Obtained and inspected the business
                                     and DFAS.
                                                                             continuity plan and confirmed that
                                                                             supporting critical operations are
                                                                             identified, and emergency priorities are
                                                                             established and approved by
                                                                             management.

                                                                                                                          No relevant exceptions
      DFAS has classified all        6.2.1 DFAS Saufley Field                DFAS Saufley Field
                                                                                                                          noted.
6.2   DFAS-owned assets
                                     Management has classified DCPS          Inspected the DCPS SSAA and confirmed
      according to criticality and
                                     according to appropriate MAC-level      that a MAC level had been assigned to
      sensitivity.
                                     standards.                              DCPS.
                                                                             Inquired with data owners and confirmed
                                                                             that a MAC level has been assigned to
                                                                             DCPS.
                                                                             Inspected the DCPS SLA between DFAS
                                                                             and DISA to determine the classification
                                                                             of DCPS communicated to DISA.

                                                                                                                          No relevant exceptions
      Data management and the        6.3.1 DFAS Saufley Field                DFAS Saufley Field
                                                                                                                          noted.
6.3   disposition and sharing of
                                     Documented policies and procedures      Inspected documents authorizing file
      data requirements are
                                     are in the DCPS SSAA that governs       sharing and file sharing agreements and
      identified in the SLAs.
                                     the sharing of data.                    confirmed that the owners approve the
                                                                     91
No.       Control Objectives                  Control Activities                       Tests Performed                   Results of Testing


                                                                           sharing of data. In many cases, these
                                                                           documents are called a Memorandum of
                                                                           Understanding or SLA.
                                                                           Inspected the DCPS SSAA and confirmed
                                                                           that a MAC level had been assigned to
                                                                           DCPS.
                                                                           Inquired with data owners and confirmed
                                                                           that a MAC level has been assigned to
                                                                           DCPS.
                                                                           Inquired with data owners and confirmed
                                                                           that a Memorandum of Understanding has
                                                                           been developed and is in place for each
                                                                           DCPS interface.

                                                                                                                       No relevant exceptions
      DCPS has logical controls      6.4.1 DFAS Saufley Field              DFAS Saufley Field
6.4                                                                                                                    noted.
      over data files and software
                                     The SAAR is used to identify
      programs.
                                     authorized users and control their    Requested a complete DCPS user list.
                                     access.                               Selected a random sample of users from
                                                                           the list and inspected their user access
                                                                           request forms for existence and approval
                                                                           by management.
                                                                           Inspected the application to confirm that
                                                                           users must have possessed a valid User
                                                                           ID and password to gain access to the
                                                                           system.
                                                                           Interviewed owners and inspected
                                                                           supporting documentation to confirm that
                                                                           inappropriate access is removed in a
                                                                           timely manner.
                                                                           Interviewed security managers and
                                                                           confirmed that supporting documentation

                                                                      92
No.   Control Objectives            Control Activities                         Tests Performed                    Results of Testing


                                                                   was provided to them.
                                                                   Obtained a representative sample of
                                                                   profile changes and activity logs and
                                                                   confirmed that management reviewed the
                                                                   changes and logs.
                                                                   Obtained a list of recently terminated
                                                                   employees from the personnel office.
                                                                   Selected a random sample of terminated
                                                                   employees and confirmed that system
                                                                   access was promptly terminated.

                                                                                                                No relevant exceptions
                           6.4.2 DISA DECC-MECH                    DISA DECC-MECH
                                                                                                                noted.
                           The DISA System Support Office, a       Confirmed through inquiry and inspection
                           unit independent of DISA DECC-          of the root access users for the DCPS
                           MECH operations, is responsible for     servers that access restrictions have been
                           maintaining the system libraries;       established around the data files and
                           however, DISA DECC-MECH                 software programs.
                           performs the library installation.
                                                                   Inspected the access logs and
                           Access to system libraries is
                                                                   corroborated with management that the
                           restricted to authorized individuals,
                                                                   access logs are reviewed for inappropriate
                           including system programmers at the
                                                                   access and that system libraries are
                           DISA System Support Office and
                                                                   managed and maintained to protect
                           DISA DECC-MECH.
                                                                   privileged programs.




                                                            93
No.       Control Objectives                  Control Activities                        Tests Performed                    Results of Testing



7     User Account Management

                                                                                                                         No relevant exceptions
      Authorized users and their     7.1.1 DISA DECC-MECH and               DISA DECC-MECH
7.1                                                                                                                      noted.
      access rights are identified   DFAS Saufley Field
                                                                            Inspected the policies and procedures for
      for DISA-/DFAS-owned
                                     User accounts are suspended after 35   restricting access to the systems software
      assets.
                                     days of no activity (60 days for TSO   to confirm that they were up-to-date.
      Access authorizations are      and payroll offices) and removed
                                                                            Generated a list from the Discretionary
      appropriately limited.         after 180 days of no activity.
                                                                            Access Control database of individuals
                                     Accounts are approved by IA
                                                                            who had direct access to the system
                                     officers.
                                                                            software and selected a random sample of
                                                                            users with direct access.
                                                                            For each user selected, confirmed with
                                                                            key management personnel that these
                                                                            users were authorized to have this access.
                                                                            Inquired with key management that
                                                                            suspension and termination of access is
                                                                            performed according to the policies and
                                                                            procedures.
                                                                            Interviewed owners and inspected
                                                                            supporting documentation to confirm that
                                                                            inappropriate access is removed in a
                                                                            timely manner.
                                                                            Obtained a list of recently terminated
                                                                            employees from the personnel office.
                                                                            Selected a random sample of terminated
                                                                            employees and confirmed that system
                                                                            access was promptly terminated.


                                                                            DFAS Saufley Field
                                                                            Inspected the policies and procedures for
                                                                     94
No.       Control Objectives                   Control Activities                         Tests Performed                    Results of Testing


                                                                              restricting access to the DCPS application
                                                                              software to confirm that they were up-to-
                                                                              date.
                                                                              Generated a list from the Discretionary
                                                                              Access Control database of individuals
                                                                              who had direct access to the DCPS
                                                                              application software and selected a
                                                                              random sample of users with direct
                                                                              access. For each user selected, confirmed
                                                                              with key management personnel that
                                                                              these users were authorized to have this
                                                                              access.
                                                                              Inquired with key management that
                                                                              suspension and termination of access is
                                                                              performed according to the policies and
                                                                              procedures.
                                                                              Interviewed owners and inspected
                                                                              supporting documentation to confirm that
                                                                              inappropriate access is removed in a
                                                                              timely manner.
                                                                              Obtained a list of recently terminated
                                                                              employees from personnel office.
                                                                              Selected a random sample of terminated
                                                                              employees and confirmed that system
                                                                              access was promptly terminated.


      IAOs or SAs periodically        7.2.1 DISA DECC-MECH                    DISA DECC-MECH
7.2                                                                                                                        No relevant exceptions
      review authorization listings
                                      Access to the system software is        Inquired with key personnel to determine     noted.
      to determine
                                      administered based on roles.            how root and/or privileged access is
      appropriateness.
                                                                              administered.
      Policies and techniques
                                                                              Obtained the list of individuals with root
      have been implemented for
                                                                              and or privileged access.
                                                                         95
No.       Control Objectives             Control Activities                    Tests Performed                     Results of Testing


      using and monitoring the
                                                                   Inquired with management if root and
      use of system utilities.
                                                                   privileged access is appropriate and that
                                                                   the use of these accounts is logged.
                                                                   Inspected a random sample of the audit
                                                                   logs from the DCPS servers to confirm
                                                                   that personnel review the logs on a
                                                                   regular basis and that any issues noted are
                                                                   documented and researched.


      Emergency and temporary    7.3.1 DISA DECC-MECH and          DISA DECC-MECH                                No relevant exceptions
7.3
      access is controlled.      DFAS Saufley Field                                                              noted.
                                                                   Inspected the emergency and temporary
                                 Emergency and temporary access    access policy.
                                 authorization is controlled in
                                                                   Selected a random sample of emergency
                                 accordance with DoD 5200.1-R,
                                                                   and temporary access and confirmed that:
                                 DoD 5200.2-R, DoDD 8500.1, and
                                 DoDI 8500.2. Accounts are             •    the authorization was approved
                                 approved by the IA officers.               and that the access was closed in
                                                                            a timely manner,
                                                                       •    the emergency and temporary
                                                                            access list is periodically
                                                                            reviewed, and
                                                                       •    temporary access authorizations
                                                                            were established for least
                                                                            privileged, need-to-know access.


                                                                   DFAS Saufley Field
                                                                   Inspected the emergency and temporary
                                                                   access policy.
                                                                   Selected a random sample of emergency
                                                                   and temporary access and confirmed that:
                                                              96
No.       Control Objectives                Control Activities                          Tests Performed                     Results of Testing



                                                                                •    the authorization was approved
                                                                                     and that the access was closed in
                                                                                     a timely manner,
                                                                                •    the emergency and temporary
                                                                                     access list is periodically
                                                                                     reviewed, and
                                                                                •    temporary access authorizations
                                                                                     were established for least
                                                                                     privileged, need-to-know access.

                                                                                                                          DFAS was unable to
      Group authenticators for     7.4.1 DFAS Saufley Field                 DFAS Saufley Field
7.4                                                                                                                       provide 3 of 18
      application or network
                                   Group authenticators are not used for    Confirmed through inquiry that group          randomly selected dates
      access may be used only in
                                   DCPS or network access. Upon             authenticators for the application and        for operator job logs
      conjunction with an
                                   initial system login, a user’s actions   network are used. Inquired why group          requested.
      individual authenticator
                                   are tracked based on their unique        authenticators are used. Inquired if users
                                   user account.                            are authenticated individually prior to the
                                                                            use of a group authenticator. Confirmed
                                                                            through observation that group
                                                                            authentication is used by the operations
                                                                            group; however, confirmed that operator
                                                                            job logs are used to record the actions of
                                                                            the operators, which use the group
                                                                            authentication.




                                                                    97
No.       Control Objectives                 Control Activities                          Tests Performed                      Results of Testing



8     Physical Security

                                                                                                                            No relevant exceptions
      Building, administration,     DFAS Saufley Field                       DFAS Saufley Field
8.2                                                                                                                         noted.
      and computer facility
                                    DFAS facilities at DFAS Saufley          Inquired with facility management as to
      physical controls have been
                                    Field have implemented adequate          the physical security controls in place.
      implemented.
                                    physical security controls in            Confirmed through observation that these
                                    accordance with DODI 8500.2.             controls are in place. Obtained results of
                                                                             the most recent facility penetration testing
                                    Physical access points are guarded or
                                                                             and confirmed that management reviewed
                                    alarmed 24 hours a day.
                                                                             the results of the test.
                                    The Random Anti-Terrorism
                                    Measures process is in place and it
                                    includes periodic, unannounced
                                    attempts to penetrate DFAS facilities.
                                    Only authorized personnel with
                                    appropriate access approval are
                                    granted physical access.




                                                                     98
No.       Control Objectives              Control Activities                           Tests Performed                 Results of Testing



      Visitors are controlled.   8.3.2 DFAS Saufley Field                  DFAS Saufley Field                        The Administrator 6H
8.3
                                                                                                                     visitor policy did not
                                 All visitors must sign in and out on      Inspected the visitor policies and
                                                                                                                     include policies and
                                 the Visitor Control Log located in the    procedures to confirm they are
                                                                                                                     procedures for granting
                                 main lobby.                               documented.
                                                                                                                     access to visitors for an
                                                                           Confirmed through inquiry that all        extended length of time.
                                                                           visitors are controlled.
                                 The DCPS SSAA requires all non-
                                 cleared personnel to be escorted at all   Confirmed through inquiry and
                                 times while inside the building.          observation that visitor access to DoD
                                                                           information was determined by both its
                                                                           classification and user need-to-know.




                                                                           Obtained the visitor check-in log for a
                                                                           random sample of normal business days.
                                                                           Confirmed that the log has been
                                                                           completed according to the visitor
                                                                           policies and procedures.




                                                                   99
No.       Control Objectives                  Control Activities                         Tests Performed                    Results of Testing



9     Logical Access

      Access settings have been      9.1.1 DISA DECC-MECH                   DISA DECC-MECH
9.1                                                                                                                       No relevant exceptions
      implemented in accordance
                                     Access settings have been              Obtained a random sample of users with        noted.
      with the access
                                     implemented in accordance with the     access to DCPS Logical Partition (LPAR)
      authorizations established
                                     access authorizations established by   and obtained the SAAR for the sampled
      by the resource owners.
                                     signature authority of the resource    personnel. Confirmed that each SAAR
                                     owner listed on the SAAR and in        details the user’s justification for access
                                     accordance with DoDD 8500.1,           and security clearance level, and that each
                                     DoDI 8500.2, and STIGs.                SAAR is properly approved.


                                     9.1.2 DFAS Saufley Field               DFAS Saufley Field
                                     The TSO assigns security profiles to   Observed the DCPS system to confirm
                                     each user ID based on need-to-know     that each user account was assigned a
                                     as demonstrated by an approved         security profile that restricts access by
                                     SAAR for system access. The DFAS       module or program.
                                     Saufley Field database administrator
                                     also assigns security profiles to      Requested a complete DCPS user list.
                                     development users through the          Selected a random sample of users from
                                     Integrated Database Management         the list and inspected the SAARs for the
                                     System (IDMS), which restricts         user’s justification for access, security
                                     access to program libraries and        clearance level, and approval by
                                     databases.                             management.
                                                                                                                          No relevant exceptions
      Passwords, tokens, or other    9.2.1 DFAS Saufley Field               DFAS Saufley Field
9.2                                                                                                                       noted.
      devices are used to identify
                                     User IDs and passwords are             Observed that each user account was
      and authenticate users.
                                     configured according to DoD            assigned a security profile that restricted
                                     standards.                             access by module and program.
                                                                            Inspected the DCPS application to
                                                                            confirm that users needed a valid user ID
                                                                            and password to gain access to the
                                                                            system.
                                                                     100
No.   Control Objectives            Control Activities                          Tests Performed                    Results of Testing



                                                                    Inspected system parameters to verify that
                                                                    the system requires a user ID and
                                                                    password.



                                                                                                                 No relevant exceptions
                           9.2.2 DISA DECC-MECH                     DISA DECC-MECH
                                                                                                                 noted.
                           Multiple layers of access controls are   Confirmed through inquiry and
                           used including, a Common Access          observation that passwords are used to
                           Card and personal identification         authenticate users.
                           number; a DCPS user ID and
                                                                    Inspected system parameters to verify that
                           password; and a RSA SecurID for
                                                                    the system requires a user ID and
                           database administration,
                                                                    password.
                           configuration management, security,
                           and tech support.                        Inspected the SSAA to confirm that
                                                                    authentication devices are in compliance
                                                                    with DoD standards.




                                                           101
No.        Control Objectives                  Control Activities                          Tests Performed                   Results of Testing



10     Network and Telecommunications

       Telecommunication defense      10.1.1 DISA DECC Montgomery              DISA DECC Montgomery                        We noted payroll data
10.1
       capabilities are                                                                                                    transmitted through the
                                      DISA DECC-MECH is in the                 Inquired with security personnel if DCPS
       implemented.                                                                                                        NIPRNET are
                                      process of encrypting all data streams   data are transmitted through a commercial
                                                                                                                           unencrypted.
       Unclassified, sensitive data   to the Federal Information Processing    or wireless network. Inquired with
       transmitted through a          Standards 140-2, “Security               security personnel to determine whether
       commercial or wireless         Requirements for Cryptographic           NIST cryptography was used to protect
       network are encrypted using    Modules.”                                information transmitted over commercial
       NIST-certified                                                          or wireless networks.
       cryptography.

       Network defense                10.2.1 DISA DECC Montgomery              DISA DECC Montgomery                        The IA-enabled
10.2   capabilities are                                                                                                    products, including
       implemented. At a              Appropriate IA products are              Inspected the DISA SAS 70 Report to         routers and firewalls,
       minimum, medium-               implemented to protect sensitive         identify any issues as a result of the      are not configured to
       robustness Commercial Off-     information when the information         testing.                                    “deny by default,” and
       the-Shelf (COTS) IA and        transits public networks or the                                                      DISA DECC-MECH
       IA-enabled products are        system handling the information is                                                   firewalls are not STIG
                                                                               Inquired with system administrators to
       used to protect sensitive      accessible by individuals who are not                                                compliant.
                                                                               determine whether telnet access to the
       information when the           authorized to access the information
                                                                               DCPS mainframe domain is secured
       information transits public    on the system.
                                                                               using SWA.
       networks or the system
       handling the information is
                                      Telnet access to the DCPS
       accessible by individuals
                                      mainframe domain is secured using
       who are not authorized to
                                      Secure Web Access (SWA). All
       access the information on
                                      DCPS users must use SWA when
       the system.
                                      accessing DCPS.
       Remote and dial-up             10.3.1 DISA DECC Montgomery              DISA DECC Montgomery
                                                                                                                           Noted users did not use
10.3   capabilities are controlled.
                                                                                                                           DoD-issued computers
                                      Remote access to the Internet is         Inspected the DISA SAS 70 Report to
                                                                                                                           for remote telnet access
                                      regulated by positive technical          identify any issues as a result of the
                                      controls, such as proxy services and     testing.
                                                                      102
No.   Control Objectives            Control Activities             Tests Performed     Results of Testing


                           screened subnets, also called
                           demilitarized zones (DMZ), or
                                                                                     through the MIAP
                           through systems that are isolated
                                                                                     application to the MZF
                           from all other DoD information
                                                                                     LPAR.
                           systems through physical means.

                           There is a remote dial-in router
                           provided for systems administrators
                           that requires Secure Shell
                           restrictions. The Exchange System
                           Manager is installed on some of
                           these systems.

                           System administrators must use the
                           DISA CSD out-of-band network to
                           access all servers for which they are
                           responsible for the administration
                           and maintenance.

                           There is a “deny-by-default” policy
                           implemented at DISA DECC-
                           MECH that prohibits data traffic
                           over ports and protocols unless
                           specifically allowed in the ACL
                           rules.




                                                           103
No.        Control Objectives                 Control Activities                          Tests Performed                  Results of Testing



       Conformance testing that       10.4.1 DISA DECC-MECH                  DISA DECC-MECH                              No relevant exceptions
10.4
       includes periodic,                                                                                                noted.
                                      DISA DECC-MECH performs                Confirmed through inquiry that
       unannounced, in-depth
                                      monthly scans to check for any         conformance testing was performed that
       monitoring and provides for
                                      DCPS network vulnerabilities. The      included periodic, unannounced, in-depth
       specific penetration testing
                                      DCPS system and hardware are           monitoring and provided for specific
       to ensure compliance with
                                      reviewed through periodic SRR          penetration testing to confirm compliance
       all vulnerability mitigation
                                      reviews that are conducted by FSO      with vulnerability mitigation procedures.
       procedures is planned,
                                      on the DCPS mainframe domain.
       scheduled, and conducted.


                                                                             Obtained and inspected documentation
                                                                             produced from this conformance testing
                                                                             to confirm that vulnerability scans were
                                                                             completed.
                                                 [This control objective was intentionally left blank.]
11




                                                                    104
No.        Control Objectives                  Control Activities                            Tests Performed                      Results of Testing



12     Access Monitoring

       Audit trails are maintained.   12.1.1 DISA DECC-MECH and                 DISA DECC-MECH                                  DISA DECC-MECH
12.1
                                      DFAS Saufley Field
                                                                                Confirmed through inquiry that audit            No relevant exceptions
                                      A security audit trail is implemented     trails are implemented for the MZF              noted.
                                      for each system that documents the        LPAR.
                                      identity of each person/device having
                                                                                Inspected the audit trails available and
                                      access to a system, the time of that                                                      DFAS Saufley Field:
                                                                                determined what information is being
                                      access, user activity, and any actions
                                                                                logged.                                         DFAS was unable to
                                      that, attempt to change security levels
                                      or privileges established for the user.                                                   provide 3 of 54 audit
                                                                                Confirmed through inquiry and inspection
                                      The audit trail is maintained by                                                          logs.
                                                                                that audit trails are maintained for at least
                                      DISA.                                     5 years.                                        Of 54 audit logs, 10
                                                                                                                                lacked evidence of
                                                                                Confirmed through inquiry and inspection
                                                                                                                                management review.
                                                                                that the log is reviewed and signed by
                                                                                management.


                                                                                DFAS Saufley Field
                                                                                Confirmed through inquiry that audit
                                                                                trails are implemented for the application.
                                                                                Inspected the audit trails available and
                                                                                determined what information is being
                                                                                logged.
                                                                                Confirmed through inquiry and inspection
                                                                                that audit trails are maintained for at least
                                                                                5 years.
                                                                                Confirmed through inquiry and inspection
                                                                                that the log is reviewed and signed by
                                                                                management.


                                                                       105
No.        Control Objectives                    Control Activities                        Tests Performed                    Results of Testing



                                       12.1.3 DFAS Saufley Field               DFAS Saufley Field                           No relevant exceptions
                                                                                                                            noted.
                                       Adheres to DITSCAP requirements         Inspected the policy for protecting the
                                       for system access and content,          audit trails and confirmed that the policy
                                       retention, and protection of audit      limits access to audit trails.
                                       trails. The most recent testing of
                                                                               Confirmed through inquiry and inspection
                                       compliance with DITSCAP guidance
                                                                               that audit logs included activities that
                                       is contained in the DCPS SSAA,
                                                                               might modify, bypass, or negate
                                       Appendices H and P.
                                                                               safeguards controlled by the system so
                                                                               that the audit trails should be protected
                                                                               against unauthorized access,
                                                                               modification, or deletion.
                                                                               Observed that only select/limited number
                                                                               of individuals, such as the ISSO and
                                                                               Information Assurance Manager, have
                                                                               access to the audit trails.


       Suspicious network access       12.4.2 DFAS Saufley Field               DFAS Saufley Field                           No relevant exceptions
12.4
       activity is investigated and                                                                                         noted.
                                       Desktop Management Interface
       appropriate action is taken.                                            Confirmed through inquiry with key
                                       controls the configuration of
                                                                               personnel that the use of instant
                                       computers, and instant messaging
                                                                               messaging is against DoD policy.
                                       programs are not authorized. Saufley
       Instant messaging traffic to                                            Inquired to determine how instant
                                       Field monitors application usage
       and from instant messaging                                              messaging is controlled. Inspected
                                       through an automated software
       clients that are                                                        firewall rules to confirm that instant
                                       auditing application that runs
       independently configured by                                             messaging is blocked.
                                       regularly when users logon to their
       end users and that interact
                                       workstation.
       with a public service
       provider is prohibited within   Instant messaging programs are
       DoD information systems.        identified as part of that auditing
                                       process.




                                                                         106
No.        Control Objectives                Control Activities                         Tests Performed                   Results of Testing



13     DCPS Change Management

       DISA or DFAS-initiated       13.1.1 DISA DECC-MECH                   DISA DECC-MECH                              We could not confirm
13.1
       application, software, or                                                                                        that changes were
                                    Procedures addressing the testing of    Obtained and inspected the change
       hardware modifications are                                                                                       tested prior to
                                    patches, upgrades, and new              management policies and procedures for
       authorized, and the                                                                                              implementation due to
                                    Automated Information System            systems software to confirm that they
       documentation is                                                                                                 the lack of traceability
                                    applications are documented.            exist and are current.
       maintained.                                                                                                      between the MZO
                                    All changes to information systems      Requested the full population of            change request tickets
                                    at DISA DECC-MECH are brought           code/database modifications from the        and the MZF change
                                    before at least one of two Change       DCPS production code library which          tickets.
                                    Control Boards (CCBs). DISA             occurred during the audit period under
                                    headquarters has an Executive           review (10/01/07 through 3/31/08) and
                                    Software CCB (ESCCB) that is            traced a sample of modifications to an
                                    responsible for reviewing all major     approved System Change Request (SCR).
                                    system changes, including new
                                                                            For the modifications selected, obtained
                                    versions, new software, and the
                                                                            the change request document and
                                    removal of software. There is also a
                                                                            confirmed that it was approved by key
                                    local CCB at DISA DECC-MECH
                                                                            personnel prior to implementation.
                                    that meets on a weekly basis. The
                                    local CCB is responsible for            Confirmed that each modification was
                                    reviewing all operating system          tested and the test results were approved
                                    upgrades and fixes. The local CCB       prior to the modification being
                                    is also responsible for alerting the    implemented.
                                    customer to the change, obtaining the
                                    customer approval before                Confirmed the modification is
                                                                            documented by inspecting the SCR;
                                    proceeding, and maintaining the
                                    change control records.                 System Test Plan; detailed system
                                                                            specifications; and unit, system, and
                                                                            acceptance testing results.
                                    13.1.2 DISA DECC-MECH
                                    The DISA Executive Software CCB
                                    consists of representative of DISA
                                    management, as well as all the DISA
                                                                    107
No.   Control Objectives            Control Activities                            Tests Performed                      Results of Testing


                           DECCs. The DISA DECC-MECH
                           local CCB consists of all department
                           heads and the Information Assurance
                           Manager.


                           13.1.3 DFAS Saufley Field                 DFAS Saufley Field
                                                                                                                     No relevant exceptions
                           Testing of changes follows the            Using the same random sample selected           noted.
                           approved process outlined in the          for control objective 13.1, we confirmed
                           DFAS TSO Business Process                 that the DCPS application changes
                           Handbook prior to implementation.         followed the appropriate test and
                                                                     migration process by inspecting the
                           A Testing Deficiency Report is
                                                                     following for completeness,
                           issued for SCRs with negative test
                                                                     authorization, and software quality
                           results, and the Transportation
                                                                     requirements:
                           Discrepancy Report is routed to the
                           appropriate individuals. If necessary,        •    system test plan;
                           an amendment is issued and it
                           processes through the same approval           •    detailed system specifications;
                           process as an SCR.                                 and
                                                                         •    unit, system, and acceptance
                                                                              testing results.
                                                                     Inquired with DCPS security personnel as
                                                                     to his/her roles and responsibilities for the
                                                                     release of security-related changes
                                                                     included in DCPS releases.
                                                                     Inspected release notes for the major
                                                                     DCPS production releases that occurred
                                                                     during the audit period.


                           13.1.4 DFAS Saufley Field                 DFAS Saufley Field                              No relevant exceptions
                                                                                                                     noted.
                           Release management staff is               Using the same random sample selected
                           responsible for ensuring that all         for control objective 13.1, confirmed that
                                                               108
No.        Control Objectives                 Control Activities                          Tests Performed                    Results of Testing


                                     programs are labeled and inventoried     the changes had been labeled, assigned an
                                     within the appropriate library.          ID, and inventoried.


       New and modified              13.2.1 DFAS Saufley Field                DFAS Saufley Field                           No documentation
13.2
       application, hardware, and                                                                                          exists that states which
                                     Release management staff is              Using the same random sample selected
       operating system or utility                                                                                         configurable items are
                                     responsible for distribution or          for control objective 13.1, confirmed that
       software is tested and                                                                                              required to be tested
                                     implementation of new or revised         the change followed the appropriate
       controlled according to                                                                                             before implementation.
                                     software.                                distribution process by inspecting the
       specific criteria.                                                                                                  However, we noted that
                                                                              Release Authorization Report for
                                                                                                                           the Business Process
                                                                              completeness and authorization.
                                                                                                                           Handbook is under
                                                                                                                           revision to include the
                                                                                                                           testable types of
                                                                                                                           configurable items.

       Emergency changes are         13.3.1 DFAS Saufley Field                DFAS Saufley Field                           No relevant exceptions
13.3
       promptly approved.                                                                                                  noted.
                                     A Configuration Management Plan is       Using the same random sample selected
                                     implemented for software                 for control objective 13.1, we confirmed
                                     modifications. All modifications         through inspection that the DCPS
                                     must go through the SCR process and      emergency changes have been authorized
                                     receive proper approval prior to         by the program manager and/or software
                                     implementation, including                director and traced each SCR identified in
                                     emergency changes made during            the Release Authorization Report to
                                     business hours. Emergency changes        confirm it has been approved by the
                                     that arise during non-business hours     software director.
                                     may be implemented prior to SCR
                                     approval; however, the SCRs are
                                     approved through the change process
                                     the next day.


       Movement of programs and      13.4.1 DFAS Saufley Field                DFAS Saufley Field
13.4                                                                                                                       We were unable to
       data among libraries is
                                     The system administrator manages         Observed the DCPS librarian to               confirm that two of the
       controlled.
                                     access rights to the program libraries   determine how the development and            five DCPS users
                                                                      109
No.       Control Objectives               Control Activities                        Tests Performed                    Results of Testing


                                  and databases through ACF2. The        production libraries are controlled.         obtained authorization
                                  database administrator grants access                                                to access both the MZO
                                                                         Inspected the access control lists for the
                                  to the appropriate                                                                  development LPAR and
                                                                         production and development libraries
                                  development/production                                                              MZF production LPAR.
                                                                         (directories) to confirm that only
                                  environments through IDMS. IDMS
                                                                         authorized personnel have access.
                                  controls versioning in both the
                                  development and production
                                  environments.


       Use of public domain and   13.5.1 DFAS Saufley Field              DFAS Saufley Field                           No relevant exceptions
13.5
       personal software is                                                                                           noted.
                                  DFAS workstations and LANs do not      Inspected the DCPS SSAA to confirm
       restricted.
                                  allow any use of public domain         that personal software is restricted.
                                  and/or personal software. DCPS is
                                                                         Inspected a listing of approved software
                                  on the mainframe and all utilities
                                                                         to confirm such a list exists.
                                  needed are on the mainframe (which
                                  is DISA-driven).




                                                                 110
No.        Control Objectives                    Control Activities                           Tests Performed                    Results of Testing



       Changes to the DoD              13.6.1 DISA DECC-MECH                      DISA DECC-MECH                               DISA DECC-MECH:
13.6
       information system are
                                       All changes are captured in the            Obtained the CCB meeting minutes for         We could not confirm
       assessed for IA and
                                       Change Management System                   that random sample of changes previously     that changes were
       accreditation impact prior to
                                       (Change Management 2000).                  noted. Confirmed the CCB meeting             tested prior to
       implementation.
                                       Information included in each change        minutes included the discussion of the       implementation due to
                                       record is the requested time and date      DCPS changes and confirmed whether           the lack of traceability
                                       of implementation, the action to           management assessed the change for IA        between the MZO
                                       occur, and justification for the action.   and accreditation impact.                    change request tickets
                                       The change is then presented to the                                                     and the MZF change
                                                                                  Determined whether the changes were
                                       local CCB where the change is                                                           tickets.
                                                                                  approved by the CCB and testing has
                                       assessed for IA and accreditation
                                                                                  been completed and approved prior to
                                       impact. The change is only
                                                                                  implementation into the production
                                       implemented after approval from the                                                     DFAS Saufley Field:
                                                                                  environment.
                                       CCB and testing is completed and
                                                                                                                               No relevant exceptions
                                       reviewed.
                                                                                                                               noted.

                                       13.6.2 DFAS Saufley Field                  DFAS Saufley Field
                                       All changes are captured in the            Using the same random sample selected
                                       Change Management Information              for control objective 13.1, confirmed that
                                       System. Information included in            the change record includes the requested
                                       each change record is the                  time and date of implementation, the
                                       implementation, the action to occur,       action to occur, and justification for the
                                       and justification for the action. In       action.
                                       addition, all changes are assessed by
                                       the IA officers.




                                                                         111
No.       Control Objectives               Control Activities                        Tests Performed                     Results of Testing



14     Data Retention

       Data and program back-up   14.1.1 DFAS Saufley Field              DFAS Saufley Field                            DFAS Saufley Field:
14.1
       procedures have been
                                  Data and program back-up               Obtained the Business Continuity Plan to      No relevant exceptions
       implemented.
                                  procedures have been established by    confirm that it specifies the data and        noted.
                                  DFAS management                        program back-up procedures that have
                                                                         been implemented related to DCPS.
                                                                                                                       DISA DECC-MECH:
                                                                         Inquired with key personnel that
                                  DISA DECC-MECH
                                                                         resources are dedicated to the periodic       The Tape Library
                                  Data and program back-up               backing-up and restoration of data stored     Procedures did not
                                  procedures have been established by    on network share drives.                      include an update to
                                  DFAS management and are included                                                     reflect the new process
                                                                         DISA DECC-MECH
                                  in the DISA DECC-MECH Business                                                       and storage facility
                                  Continuity Plan as prescribed in the   Obtained the Business Continuity Plan to      used for back-up tapes.
                                  SLA between DISA and DFAS.             confirm that it specifies the data and
                                                                         program back-up procedures that have
                                                                         been implemented related to DCPS.
                                                                         Inquired with key personnel that
                                                                         resources are dedicated to the periodic
                                                                         backing-up and restoration of data stored
                                                                         on network share drives.
                                                                         Confirmed how often backups are
                                                                         performed, shipped to an offsite facility,
                                                                         and that the backups are maintained at the
                                                                         offsite facility in a fire rated container.
                                                                         Selected a random sample of dates, which
                                                                         occurred during the audit period, and
                                                                         obtained the back-up logs. Confirmed
                                                                         through inspection that the log is
                                                                         completed, based on the back-up policies
                                                                         and procedures.

                                                                 112
   Section IV: Supplemental Information Provided
by the Defense Finance and Accounting Service and the
         Defense Information Systems Agency




                        113
IV. Supplemental Information Provided by the Defense
Finance and Accounting Service and the Defense Information
Systems Agency

Introduction

DFAS and DISA have prepared this section and it is included to provide user
organizations with information DFAS and DISA believes will be of interest to such
organizations. However, this information is not covered within the scope or control
objectives established for the SAS 70 review. Specifically, this section includes a
summary of procedures that DFAS and DISA have implemented to enable them to
recover from a disaster affecting a Payroll Office, the TSOPE, or DISA DECC-MECH.

This information has not been subjected to the procedures applied to the audit of the
description of controls presented in Sections II and III of this report. As a result, the DoD
OIG expresses no opinion regarding the completeness and accuracy of this information.

TSOPE Specific Business Continuity Plans

The DCPS production support Continuity of Operations Plan (COOP) provides an action
plan to be implemented when a disaster or impending threat would render DCPS
production support inoperable (for example, hurricane, damage to TSOPE facilities due
to fire). This plan is evaluated and updated on an annual basis and is implemented
locally at each of the established DCPS Payroll Offices. If an impending threat or event
occurs, production support control for DCPS is transferred to an alternate-processing site.
Currently, that site is DFAS Indianapolis, Indiana. The COOP includes the names of
DCPS staff members who will serve as a pool of resources to be mobilized to execute the
plan and a list of documentation and supplies that are necessary to support the mobilized
team.

Team members are comprised of DCPS development staff members across many
divisions and branches. TSOPE designates two members of the management team to be
responsible for COOP execution. One is mobilized with the team and is responsible for
team activities and communication with TSOPE while deployed to the COOP recovery
site. The other serves as the team’s liaison at TSOPE and is responsible for relaying
current operational status, current area weather conditions, and other pertinent
information to the mobilized team. The team is further divided into two teams, with each
covering a 12-hour shift. Team leaders are appointed for the respective shift teams. The
DCPS project management staff coordinate and are involved in each step included in
planning and executing the COOP. Although this plan works for any type of disaster
where production support becomes inoperable, it has been executed several times in the
past few years during impending disastrous weather conditions, such as hurricanes.



                                            115
DECC-MECH Business Continuity Plans

To accommodate a major disaster at any major DISA processing center, DISA has
established an Enterprise Business Continuity Program. The DISA plan uses multiple
internal locations and, for mainframe processing, utilizes the Assured Computing
Environment infrastructure elements located at DISA DECC-MECH and Ogden. DISA
DECC-MECH and Ogden is equipped with computational direct access storage devices
and telecommunication resources necessary to provide a fully functional host site with
the capacity to support a major disaster at any DISA center with mainframe processing.

The COOP support agreement between DFAS, as the customer, and DISA, as the provider of
processing systems and communications services, describes a process for restoring host-site
processing in the event of a major disaster. The plan also addresses the timely resolution of
problems during other disruptions that adversely affect DCPS processing. The plan, as it relates
to DCPS, details data restoration procedures for the MZF z/OS operating system, the DCPS
Integrated Database Management System, and related mid-tier servers and communication
devices. Replicated data and back-up tapes containing incremental daily and complete weekly
backups are rotated offsite to designated locations, on a predetermined schedule, for storage.

The Crisis Management Team at DISA DECC-MECH is responsible for declaring that a disaster
has occurred and activating the Business Continuity Plan. Once a disaster has been declared, the
Crisis Management Team activates the following response teams: Communications Team,
Recovery Coordination Team, Site Recovery Team, and the Crisis Support Team. Each team
has a specific set of responsibilities defined in the Business Continuity Plan. The contact
information for each individual on each team is also included in the Business Continuity Plan.
The plan is required to be tested on an annual basis. The Business Continuity Plan was tested in
November 2005. TSOPE personnel participate in the yearly COOP exercise to ensure that the
process works correctly and documentation is updated appropriately.

DFAS Indianapolis 592 Reconciliation Report Policies and Procedures

Policies and procedures for performing the 592 Payroll for Personal Services Payroll
Certification and Summary Report reconciliation has been developed and documented at the
DFAS Indianapolis Payroll Office. Uniform procedures are in place for both DFAS Civilian
Payroll Offices for reconciliation of the 592.

DCPS Password Configuration

The access control software for the environment on which DCPS resides, ACF2 supports
complex passwords and complex passwords are utilized.




                                           116
    Acronyms and Abbreviations


ACF2      Access Control Facility 2
ATO       Authority to Operate
BBG       Broadcast Board of Governors
BRAC      Base Realignment and Closure
CCB       Change Control Board
COOP      Continuity of Operations Plan
CSR       Customer Service Representative
DAA       Designated Approval Authority
DCPS      Defense Civilian Pay System
DECC      Defense Enterprise Computing Center
DFAS      Defense Finance and Accounting Service
DISA      Defense Information Systems Agency
DITSCAP   Department of Defense Information Technology Security
            Certification and Accreditation Process
DoE       Department of Energy
EOP       Executive Office of the President
EPA       Environmental Protection Agency
FSO       Field Security Operations
HHS       Health and Human Services
IA        Information Assurance
IDMS      Integrated Database Management System
IS        Information Security
ISSO      Information System Security Officer
LAN       Local Area Network
LPAR      Logical Partition
MAC       Mission Assurance Category
MECH      Mechanicsburg
MIAP      Multi-Host Internet Access Portal
NIPRNET   Non-Classified Internet Protocol Router Network
NSA       National Security Agency
OIG       Office of the Inspector General
OLQ       Online Queries
PIIR      Personnel Interface Invalid Report
SAAR      Systems Access Authorization Request
SAS 70    Standards of Auditing Standards 70
SCR       System Change Request
SLA       Service-Level Agreement
SMC       System Management Center


                                     117
SOP     Standard Operating Procedure
SRR     System Readiness Review
SSAA    System Security Authorization Agreement
SSN     Social Security Number
STIG    Security Technical Implementation Guide
SWA     Secure Web Access
TASO    Terminal Area Security Officer
TSO     Technology Services Organization
TSOPE   Technology Services Engineering Organization in Pensacola
TSP     Thrift Savings Plan
VA      Veterans Affairs
VMS     Vulnerability Management System
VPN     Virtual Private Network




                                    118
Team Members
The Defense Financial Auditing Service, DoD OIG, in conjunction with contract auditors
produced this report. Personnel from the Technical Assessment Directorate and Quantitative
Methods Directorate, DoD OIG, also contributed to the report.

Patricia A. Marsh
Patricia Remington
Kenneth H. Stavenjord
Donna A. Roberts
Mihn Tran
Ahn Tran
Ann Thompson
Carl L. Adams
Anissa M. Nash
Kiana E. Silver
Shawn Sparks
Brian Royer
Alberto Calimano-Colon
